<html>
<title> - INVESTMENT IN AFTER-SCHOOL PROGRAMS</title>
<body><pre>[Senate Hearing 108-134]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-134

                  INVESTMENT IN AFTER-SCHOOL PROGRAMS

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                      MAY 13, 2003--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                                 ______

88-459              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
                    James W. Morhard, Staff Director
                 Lisa Sutherland, Deputy Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                 ARLEN SPECTER, Pennsylvania, Chairman
THAD COCHRAN, Mississippi            TOM HARKIN, Iowa
JUDD GREGG, New Hampshire            ERNEST F. HOLLINGS, South Carolina
LARRY CRAIG, Idaho                   DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          HARRY REID, Nevada
TED STEVENS, Alaska                  HERB KOHL, Wisconsin
MIKE DeWINE, Ohio                    PATTY MURRAY, Washington
RICHARD C. SHELBY, Alabama           MARY L. LANDRIEU, Louisiana
                           Professional Staff
                            Bettilou Taylor
                              Jim Sourwine
                              Mark Laisch
                         Sudip Shrikant Parikh
                             Candice Rogers
                        Ellen Murray (Minority)
                         Erik Fatemi (Minority)
                      Adrienne Hallett (Minority)

                         Administrative Support
                             Carole Geagley


                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening statement of Senator Arlen Specter.......................     1
Statement of Hon. William D. Hansen, Deputy Secretary, Department 
  of Education...................................................     1
    Prepared statement...........................................     4
Statement of Senator Barbara Boxer, U.S. Senator from California.    17
    Prepared statement...........................................    22
Statement of Arnold Schwarzenegger, national chairman, National 
  Inner-city Games Foundation....................................    23
    Prepared statement...........................................    30
Statement of Hon. John DeStefano, Jr., mayor, New Haven, CT......    33
    Prepared statement...........................................    36
Statement of Harvey Sprafka, chief of police, Knoxville, IA......    38
    Prepared statement...........................................    40
Statement of Steven Kinlock, student, the Preparatory Charter 
  School for Mathematics, Science, Technology, and Careers, 
  Philadelphia, PA...............................................    42
    Prepared statement...........................................    43
Statement of Madison White, student, Massillon Public Schools, 
  Massillon, OH..................................................    44
    Prepared statement...........................................    45

 
                  INVESTMENT IN AFTER-SCHOOL PROGRAMS

                              ----------                              


                         TUESDAY, MAY 13, 2003

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:40 a.m., in room SH-216, Hart 
Senate Office Building, Hon. Arlen Specter (chairman) 
presiding.
    Present: Senator Specter.


               OPENING STATEMENT OF SENATOR ARLEN SPECTER


    Senator Specter. The Appropriations Subcommittee on Labor, 
Health, Human Services, and Education will now proceed.


                21ST CENTURY COMMUNITY LEARNING CENTERS


    Our hearing this morning is to consider the budget request 
by the Department of Education for fiscal year 2004 for the 
21st Century Community Learning Centers Program. The request by 
the Department is for $600 million, which is a very sharp 
reduction of last year's appropriation, which was $993 million. 
This is a program which serves approximately 1,300,000 students 
in 1,400 communities throughout the United States. It provides 
a wide variety of educational experiences and has generally 
been regarded to be a highly effective program until the 
Department of Education this year has cited what they conclude 
to be, quote, ``disappointing initial findings from a rigorous 
evaluation.'' In light of this conclusion, albeit preliminary, 
the subcommittee concluded that it would be important to have a 
hearing and go into this issue in some detail.
    We have respect, obviously, for what the administration has 
to say, but constitutionally the responsibility for the 
appropriations process rests with the Congress, and it begins 
with this subcommittee, which has jurisdiction over the 
Department of Education.


STATEMENT OF HON. WILLIAM D. HANSEN, DEPUTY SECRETARY, 
            DEPARTMENT OF EDUCATION
ACCOMPANIED BY RUSS WHITEHURST, DIRECTOR, INSTITUTE OF EDUCATION 
            SCIENCES, DEPARTMENT OF EDUCATION

    Senator Specter. Our first witness is Deputy Secretary Bill 
Hansen, who has had that position since May of 2001. Prior to 
that appointment, he was president and chief executive officer 
of the Education Financial Council. He has a bachelor's degree 
from George Mason University. He's accompanied by Mr. Russ 
Whitehurst, who is the director of the Institute of Education 
Sciences at the Department of Education.
    Thank you for joining us, Mr. Hansen. Our subcommittee rule 
on testimony is 5 minutes, and we ask witnesses to adhere to 
that to the extent possible. Some people think that 5 minutes 
is brief. We recently had a memorial service for Ambassador 
Walter Annenberg, and the speakers included President Ford, 
Secretary of State Colin Powell, and myself, and we were 
limited to 3 minutes. So I want you to know what a generous 
allocation 5 minutes is.
    Secretary Hansen, the floor is yours. You may proceed.
    Mr. Hansen. Thank you, Mr. Chairman. And everything I have 
to say, I will say in 5 minutes here.
    Thank you for the invitation to be before your subcommittee 
this morning, and I am grateful that the name card is here on 
the table, so that nobody is going to mistake me for a major 
Hollywood star. But I have seen what happens when Mr. 
Schwarzenegger walks into a building. When he came to meet with 
Secretary Paige at the Department, we practically had to call 
the fire marshal in to clear the hallways.
    Senator Specter. Excuse me, is he one of the students 
involved in this testimony?
    Mr. Hansen. That is right.
    Senator Specter. I am surprised to hear your star is Mr. 
Schwarzenegger, as opposed to the students, but proceed.
    Mr. Hansen. But everybody wanted to grab a glimpse of him, 
and I must also say I have testified dozens of times on Capitol 
Hill, and this is the first time my children have come to see 
me, so they are not here for me.
    Anyway, Mr. Schwarzenegger does have many fans, and it is 
not just those who flock to the theaters to see his films. Many 
of his biggest fans are the schoolchildren all across America, 
who have found him a good friend and an inspiration, and a 
strong advocate on their behalf. And in this mission, he has 
strong allies in President Bush, Secretary Paige, and all of us 
at the Department of Education.


                  AFTER-SCHOOL PROGRAM--ASPIRING YOUTH


    As Houston school superintendent, Secretary Paige helped 
launch an after-school program called Aspiring Youth that 
blended both academics and the athletic focus that Mr. 
Schwarzenegger's Inner City Games Foundation produces. I am 
also pleased to have with me today--behind me, Texas Juvenile 
Court Judge Eric Andell, who led that program when he was in 
Houston. Judge Andell now heads the Department of Education's 
Office of Safe and Drug-Free Schools.
    President Bush and Secretary Paige believe in the bright 
potential of every child, and I know you do, and the 
subcommittee does, as well, Mr. Chairman. Thanks to the 
bipartisan support of many here in Congress, the President last 
year signed the most sweeping reform of Federal education 
policy in over three decades, the No Child Left Behind Act of 
2001. This new law lays out a loud and clear message that every 
child can learn, no matter what their background, where they 
live, or how much money their parents earn.


            21ST CENTURY COMMUNITY LEARNING CENTERS FUNDING


    An important part of this effort is the 21st Century 
Community Learning Centers Program that calls for safe and 
caring places for children to go to after school lets out, 
where they can make quality use of their time by getting help 
with homework or playing sports or studying. We backed that 
commitment with significant funding, $1 billion last year, and 
$993.5 million this year.
    Our commitment to children, great as it is, is also matched 
by our commitment to use hard-earned taxpayer dollars more 
wisely. And President Bush and Secretary Paige have been very 
clear on this point. Our focus is the child. We will fund only 
what works to help children. We will not pour limited resources 
into programs that fail their mission.


               MATHEMATICA STUDY OF AFTER-SCHOOL PROGRAMS


    So you can imagine our concern, Mr. Chairman, when some 
troubling findings turned up in a rigorous evaluation by 
Mathematica Policy Research of the 21st Century After School 
Program. The study found that many of the after-school 
providers did not improve academic performance, did not 
decrease delinquent behavior, and did not make students feel 
safer.


           FISCAL YEAR 2004 REQUEST FOR AFTER-SCHOOL PROGRAMS


    Clearly, this was not our definition of success, so we made 
the decision to reduce funding for this program in our 2004 
budget request to $600 million and spend those resources on 
proven effective programs where they have demonstrated results. 
In particular, the Title I program for educationally and 
economically disadvantaged children, and also special education 
for children with disabilities. The President's budget request 
for both of these programs received a billion-dollar increase 
representing our priorities.
    But to help ensure future success, we are also taking 
action steps to ensure that the billion dollars we are spending 
this fiscal year and what Congress appropriates for 2004 will 
be driven towards results for children.


                      AFTER-SCHOOL PROGRAMS SUMMIT


    Let me just highlight a couple of our initiatives that we 
are working on. Next month, the Department will co-host a 
summit with Mr. Schwarzenegger that will bring together 
experts, after-school providers, educators, and parents to talk 
about what it takes to create a quality after-school program. 
And, I must say, when Secretary Paige met with Mr. 
Schwarzenegger in Palo Alto several months ago, this was 
Arnold's suggestion, and it was a wonderful idea. We are 
looking forward to working with him on it as we move into the 
summer months.


                MODEL PROGRAMS AND TECHNICAL ASSISTANCE


    Second, the Department is about to begin researching the 
effectiveness of some promising after-school models that have 
come to our attention. And, finally, we are providing technical 
assistance to many new applicants for State grant funds to help 
strengthen their programs.


       ADMINISTRATION COMMITMENT TO QUALITY AFTER-SCHOOL PROGRAMS


    This administration is totally committed to quality after-
school programs that will provide a safer place for more young 
people to grow and learn, away from the temptations and dangers 
of the streets. It is a goal that we share with Mr. 
Schwarzenegger.
    We look forward to working with you, Mr. Chairman, and also 
your distinguished colleagues on this subcommittee, to 
accomplish these noble goals on behalf of America's children.

                           PREPARED STATEMENT

    I would also just like to conclude by saying that we very 
much look forward to, as this Committee and as this Congress 
maps out their budget resolution and their priorities for the 
upcoming appropriations process, working with you as we 
prioritize where our funding levels should go. We look forward 
to working with you in that capacity.
    Mr. Chairman, thanks again for the opportunity to be with 
you this morning.
    [The statement follows:]

                Prepared Statement of William D. Hansen

    Mr. Chairman and Members of the Committee: Thank you for this 
opportunity to discuss the benefits of after-school programs in the 
context of the Department of Education's 21st Century Community 
Learning Centers program. The Administration supports the development 
of local after-school programs, and believes they play an important 
role in many communities. The Administration also supports the 21st 
Century Community Learning Centers program, but has taken three 
important factors into consideration in setting forth its 2004 budget 
proposal for this program.
    First, the recent rigorous evaluation of this Federal program 
indicates, among other things, that grantees are not having a positive 
impact on students' achievement. This Administration is dedicated to 
funding programs that work, and this rigorous evaluation, initiated by 
the Clinton Administration, indicates this Federal program has 
shortcomings.
    Second, this Federal program is undergoing a significant, 
legislatively directed change. Congress established that the Federal 
Government shift 21st Century grant funding from Washington-selected 
grantees to those selected by States. Third, the program has grown 
rapidly with little consideration of its effectiveness. In light of 
these three factors, the Administration believes the most responsible 
use of Federal funds would be to fund the 21st Century Community 
Learning Centers program at $600 million in 2004.
    Today I will place 21st Century funding in the context of the 
President's 2004 budget. Then I will go into more detail about the 
specific evaluation findings that led us to believe that this is a good 
time to reconsider and improve our support for after-school and other 
extended learning programs.

           EDUCATION IS A MAJOR DISCRETIONARY BUDGET PRIORITY

    As you know, earlier this year we celebrated the first anniversary 
of the No Child Left Behind Act of 2001, which President Bush signed 
into law on January 8, 2002. State officials, administrators, and 
teachers across the country now are working hard to strengthen their 
accountability systems, identify research-based strategies for 
improving student achievement, and offer new choices to parents whose 
children attend low-performing schools.
    The President's budget seeks $53.1 billion for Department of 
Education programs in 2004. That represents more than a 25-percent 
increase since 2001, and a 130-percent increase in Federal education 
funding since fiscal year 1996. Key increases for the cornerstones of 
the Federal role in education include:
  --$12.4 billion for Title I, a 41-percent increase since the passage 
        of No Child Left Behind;
  --$9.5 billion for IDEA grants to states, a 50-percent increase since 
        he was elected; and
  --$12.7 billion for Pell grants, for a record 4.9 million students.
    The challenge for the President is balancing all of the priorities 
within and outside education in a responsible budget. The President 
believes that the limited sums of available Federal funds should be 
concentrated on programs that have the greatest impact; impact derives 
from programs that are effective and demonstrate results-in other 
words, programs that are accountable. This discipline is more difficult 
in light of the competing demands of the war on terrorism and efforts 
to restore economic growth.

                     REALLOCATING SCARCE RESOURCES

    Program accountability links to resource allocation. The 2004 
budget proposes the elimination of funding for 45 education programs 
totaling $1.5 billion, and reduces funds for other programs to focus on 
higher priority activities. In making such decisions we considered the 
history of the program, recent legislative changes, and program 
effectiveness. Each of these factors contributed to our decision on the 
21st Century Community Learning Centers program.
    First, program funding had grown very rapidly, from just $1 million 
in fiscal year 1996 to $1 billion in fiscal year 2002. This rapid 
growth was due in large part to the program's presumed contribution to 
improving academic achievement, particularly for students in low-
performing schools.
    Second, the No Child Left Behind Act changed the program from a 
federally administered competitive grant program to a State formula-
grant program under which States will make competitive awards. Since 
all previously awarded projects will conclude during fiscal year 2003, 
all of the $600 million requested for 2004 would be available to States 
for new awards during a natural transition year. The requested level 
actually represents a slight increase over the amount that States will 
have in 2003 for sub-State awards. The remaining $400 million is for 
federally administered continuation grants that will end in 2003.
    Third, recent evaluation findings strongly suggested that the 21st 
Century program was not having the desired impact on student 
achievement. Nor was it effective in achieving other goals, such as 
reducing delinquent behavior. For all of these reasons, and in 
combination with the tremendous challenges involved in the 
implementation of the NCLB Act, we made difficult choices and funded 
programs that benefit our greatest needs most effectively-Title I, 
Special Education, and Pell Grants.

         EVALUATION FINDINGS SUGGEST A NEED FOR PROGRAM CHANGES

    To gain a better sense of future program directions for 21st 
Century Community Learning Centers, I think it helps to take a closer 
look at our initial evaluation findings. This evaluation, which was 
conducted by Mathematica Policy Research, Inc., uses far more rigorous 
methodologies than other studies cited in the after-school program 
literature. The research design included random selection of 
elementary-level program participants and matched comparison groups for 
middle school participants. While no single study can ever provide a 
final or complete picture of the effectiveness of a program, good 
budgeting in times of scarce resources demands that decisions be made 
on the best available evidence. This study, which is the strongest to 
date in the after-school literature, points out very basic shortcomings 
in the current Federal program:
  --Content.--After-school programs should emphasize and result in 
        improved academic achievement. Those funded under the 21st 
        Century program do not. Children's reading scores did not 
        improve. They did not perform better on homework or other 
        assignments.
  --Behavior.--The Federal program had no positive impact on delinquent 
        behavior. In fact, program participants in federally funded 
        programs were slightly more likely to have sold drugs or smoked 
        marijuana than non-participants.
  --Safety.--The program did not make students feel safer, with program 
        participants actually suffering greater property damage than 
        non-participants.
  --Participation.--Put simply, participation was weak. Children in 
        federally funded programs attended just two days a week, on 
        average, and more frequent participation in the program did not 
        lead to better outcomes.
    Current investments in the 21st Century Community Learning Centers 
program have not paid off. We believe the program's implementation 
should be reformed, and in light of the transition to State grants, we 
believe there should be a reallocation of a portion of the funds 
supporting previous rapid growth.

                       KEY CHANGES ARE UNDER WAY

    With the transition of the 21st Century program to a State-
administered competitive grant program, we are taking a number of steps 
to improve program quality and outcomes. These include: (1) developing 
model after-school programs based on sound theory and scientific 
evidence; (2) new research to test the effectiveness of various 
interventions; (3) improving the availability of research findings and 
effective after-school practices through our What Works Clearinghouse; 
and 4) expanding technical assistance at both the State and local 
levels.
    For example, the Department is helping to establish networks of 
State and local program coordinators so they can share best practices 
and effective approaches. The Department will continue its practice of 
convening annual summer grantee institutes in which States and local 
grantees share ideas on building programs that include high-quality 
academic instruction.
    The Department also plans to work with States to implement 
successfully the statutory requirement that States establish 
performance indicators and measures for 21st Century projects to help 
ensure that this is truly a performance-based program. For example, we 
plan to issue guidance providing a model of a performance-based 
competitive grant system that States could use to guide their efforts 
to comply with the statute. Such a model would help States quantify and 
monitor the value of academic achievement, behavior and safety 
performance, and student participation levels linked to recipients of 
the new State grants.

                               CONCLUSION

    Mr. Chairman, Congress and the President share the same goals with 
this program: supporting local after-school programs that provide a 
safe environment for students that improve their academic and social 
outcomes. And we agree that federally funded programs should be 
rigorously evaluated for their performance under those goals. In light 
of the evidence, the President believes the best avenue to reach those 
goals in 2004 will be for the Department of Education to implement the 
reforms that I have mentioned, and to support this program at the level 
requested in the President's budget.

                  EVALUATION OF AFTER-SCHOOL PROGRAMS

    Senator Specter. Well, thank you, Mr. Hansen.
    This is the first of three studies? Is that correct?
    Mr. Hansen. It is.
    Senator Specter. When are the other two studies going to be 
completed?
    Mr. Whitehurst. Well, we have an ongoing study, the first 
reports of which occurred in the publication that is referenced 
in Mr. Hansen's testimony. The second wave of that study is 
being analyzed now, and the results should be available within 
6 to 12 months, if not sooner.
    Senator Specter. And how about the third phase?
    Mr. Whitehurst. I am not aware of a third phase, Senator. I 
will have to check on that and get back to you.
    [The information follows:]
    Reports From 21st Century Community Learning Centers Evaluation
    The current study of the 21st Century Community Learning Centers 
program includes three reports. The first report was recently released 
(February 2003) and includes implementation and impact findings from 
the first year of data collection from the Department's study. The 
second report will include implementation and impact findings from the 
second year of data collection from the study and is projected to be 
available within the next 6 months. The third report is a synthesis 
report.

                21ST CENTURY LEARNING CENTERS EVALUATION

    Senator Specter. Well, is there a third phase?
    Mr. Whitehurst. I am saying I am not aware of the third 
phase of that----
    Mr. Hansen. We do have program evaluation monies that we 
are working with and national activities funds that we are 
contemplating using for some further look into the program.
    Mr. Whitehurst. What we have----
    Senator Specter. And what, specifically, is the ``further 
look into the program''?
    Mr. Whitehurst. What we have decided to do with evaluation 
money for the after-school program going forward is to try to 
identify and develop programs that are likely to be more 
effective in addressing safety needs and academic needs for 
children, to demonstrate that those programs are effective, if, 
in fact, they are, and, then to disseminate those programs 
widely.
    Senator Specter. Well----
    Mr. Hansen. Mr. Chairman, I think the third report you are 
referencing is going to be a combination of the first two 
reports. It is going to be a summary report. It will not have 
new research or new data. It will be a summary report.

                    FISCAL YEAR 2004 BUDGET REQUEST

    Senator Specter. Well, the question, the initial question, 
which comes to my mind is why such a drastic reduction, when 
these are only preliminary findings and you have a second 
survey which is in process which you have not analyzed? To take 
it from $900-million-plus and reduce it to $600 million really 
is an enormous reduction. It may really gut the program in many 
respects. Why is it sound to do that before your studies are 
complete?

            CHANGE FROM DISCRETIONARY TO STATE GRANT FUNDING

    Mr. Hansen. Mr. Chairman, the information we received from 
the studies also aligned with the changing of this program. 
This program, from 1997 up until last year, was a discretionary 
grant program. The applications came into the Department, and 
we funded them based on the quality of those applications. In 
the No Child Left Behind Act, the program was changed to a 
State grant program. And 2003, our current funding year, will 
be the last year of funding for all of those discretionary 
grants that we had given out before. So it is also what you 
might call a natural turnoff time in the way that the program 
is operated under the new reauthorized law.

                      CHANGES IN PROGRAM OPERATION

    Senator Specter. Mr. Hansen, I do not understand that at 
all. What is the relevancy of whether it is a discretionary 
program or a State grant program on the question as to how well 
it is working?
    Mr. Hansen. Because of the way that the program has worked 
before--under the previous statutory construction--we do not 
believe, and I do not think Congress believed, that the program 
was designed effectively, and that is why the changes were made 
in the No Child Left Behind law.
    Senator Specter. Well, now just a minute. Speak for 
yourself; do not speak for Congress. Do not tell this 
subcommittee what Congress thinks unless you have some factual 
basis for it. Do you?
    Mr. Hansen. There were changes that were made in the 
reauthorization of the program that now require that States run 
these competitions and that also open up the program not just 
to school districts, but to other community-based providers and 
faith-based providers and nonprofit organizations.
    Senator Specter. Well, there are frequently changes in 
reauthorization which do not bear on a determination that the 
program is ineffective. Do you have something specific from the 
reauthorization legislation which supports your statement that 
there is a congressional conclusion that the program was 
ineffective?
    Mr. Hansen. I did not say that Congress said it was 
ineffective. They made changes to strengthen the program and 
change the direction of the program.
    Senator Specter. No, you said that the Congress as well as 
the administration--adopted language to the effect of being 
disappointed in the program, not satisfied with it.
    Mr. Hansen. They made changes in the program, in the 2001 
reauthorization of the program.
    Senator Specter. Well, aside from the changes, do you have 
any basis for saying that Congress was dissatisfied with the 
program?
    Mr. Hansen. We do not, sir.

                TRANSITION TO STATE-ADMINISTERED PROGRAM

    Senator Specter. Well, when you talked about a change from 
discretionary funding to State grants, how is that relevant on 
the quality of the program?
    Mr. Hansen. We think that the way that the States are going 
to work with these grants, also the changes that were made in 
the reauthorization include a provision that States also have 
to focus the after-school programs on schools that are 
identified as needing improvement, and this is, we think, a 
better targeting of those school districts, to the schools 
within those school districts, that need the monies targeted 
for the after-school program.
    Senator Specter. Well, if you are talking about targeting, 
that could be the object of a discretionary program, as well, 
could it not?
    Mr. Hansen. Absolutely.
    Senator Specter. So I still do not understand the relevancy 
of your distinction between discretionary and State grants.
    Mr. Hansen. We think this gives States more control and 
more authority over how to spend their funds, and also by 
aligning the way that they are going to be approving the 
applications at the local district level to make sure that they 
are targeting those schools that are in need of improvement.
    Senator Specter. But does that say anything about the 
inadequacy or failure of the discretionary program?
    Mr. Hansen. No, sir.

              PARENTAL INVOLVEMENT FINDINGS IN EVALUATION

    Senator Specter. The studies show that, as summarized, that 
there was more parental involvement in the program. Is that an 
accurate conclusion from your preliminary studies?
    Mr. Hansen. Yes, sir.

                MATH PERFORMANCE FINDINGS IN EVALUATION

    Senator Specter. And it showed that math scores were at 
least slightly higher?
    Mr. Whitehurst. Yes, but we had very small numbers of 
children who were tested in math. But your conclusion is 
correct; math scores were slightly higher.
    Senator Specter. And that African American and Hispanic 
middle-school students had better grades, had less absenteeism 
and tardiness?
    Mr. Whitehurst. Those subgroups did better than other 
groups in the after-school program.
    Senator Specter. Is it not pretty important how it impacted 
on the Hispanic and African American students where there is 
customarily a greater concern about the quality of education?
    Mr. Whitehurst. We think that the subgroup analysis is very 
interesting and suggests an avenue to proceed, in terms of 
designing new programs. Clearly, there are subgroups that are 
likely to benefit. How one could structure a program so that it 
is particularly appealing to those subgroups and serves their 
needs would be an avenue for future development and research.

               MATHEMATICA STUDY OF AFTER-SCHOOL PROGRAMS

    Senator Specter. Well, does not it also support the 
conclusion that it is a good program?
    Mr. Whitehurst. It is very difficult to go in after the 
fact, analyze for subgroups, and be sure that the effects would 
be the same as they are generalized to programs at large. This 
study, the study you are referring to, the Mathematica study, 
is a very carefully designed study in the context of typical 
research and education evaluation. It, for one thing, involved 
a randomization, which is very rare in education research. It 
also involved, at the middle-school level, a carefully matched 
comparison group. So it is one of the stronger studies we have 
available in the whole of the education evaluation literature, 
and it spoke generally to weak effects--no increases in reading 
scores, a slight increase in the possibility of drug 
involvement at the middle-school level--some positive effects, 
some negative effects; added up, all small in both directions 
and an overall sense that the program is simply not 
accomplishing what everyone hopes it would accomplish, at least 
in those sites that were studied.
    Senator Specter. Well, you have moved from the area where 
there had been improvement to your generalization of 
dissatisfaction. And your last answer identifies the 
difficulties of evaluation. And that is why, frankly, I am 
surprised that, when your studies are incomplete, you come in 
and want to reduce it from $933 million to $600 million. Your 
last answer articulates the difficulty of making an evaluation. 
And the evaluation is incomplete.
    Mr. Whitehurst. Well, my comments are intended to indicate 
that this is one of the strongest evaluations that exists in 
the education literature. There are a number of policy 
decisions that could be made with respect to a particular 
evaluation outcome. This study does not compel a budget 
reduction, but it is a very strong study, and I am here to 
speak to the qualities of the study and not to the budget 
decision.
    Senator Specter. Mr. Hansen or Mr. Whitehurst--we had heard 
you were not going to testify, Mr. Whitehurst, but we are glad 
to have you testify.
    Mr. Whitehurst. Thank you, sir.

          BENEFIT-TO-COST FINDINGS IN TWO AFTER-SCHOOL STUDIES

    Senator Specter. Are you familiar with the Washington State 
Institute for Public Policy, which found that after-school 
programs can yield a benefit-to-cost ratio to taxpayers and 
crime victims of $1.87 to $5.29 for every dollar spent?
    Mr. Whitehurst. I am aware of that conclusion, yes, sir.
    Senator Specter. And the Rose Institute study finds that 
quality after-school programs can reduce costs related to 
welfare, crime, and education, remedial services, and grade 
repetition, for an average net benefit of between $79,000-plus 
to $119,000-plus per participant?
    Mr. Whitehurst. Yes, sir, I am aware of that conclusion.

            CENTER FOR THE STUDY AND PREVENTION OF VIOLENCE

    Senator Specter. And are you aware of the studies, without 
detailing each of them, which have concluded that after-school 
programs assist students in achieving in school--most notably 
the conclusion drawn by the Center for the Study and Prevention 
of Violence?
    Mr. Whitehurst. I am aware of a number of studies that 
examine many of the----
    Senator Specter. How about the Center for the Study and 
Prevention of Violence? That is the question.
    Mr. Whitehurst. I am not sure of which study that is. I 
have probably read it, but I am not sure, Senator.
    Senator Specter. Well, would you take a look at it and tell 
us what----
    Mr. Whitehurst. I would be pleased----
    Senator Specter [continuing]. You think of it?
    Mr. Whitehurst. I would be pleased to.
    [The information follows:]

 Analysis of the Brandeis University Study of the After-School Quantum 
Opportunities Program, as Commented on by the Center for the Study and 
                         Prevention of Violence

    Below is the Department's brief analysis of the Brandeis University 
study, which is the basis for the comments by the Center for the Study 
and Prevention of Violence. The Center's statement on the Brandeis 
study's findings is followed by the Department's analysis of the study.

                     STATEMENT AND REPORTED SOURCE

    ``Participation in the Quantum Opportunities Program led to higher 
rates of graduation: 63 percent of participants graduated high school 
compared to 42 percent of the control group.''----Center for the Study 
and Prevention of Violence

                        DISCUSSION AND ANALYSIS

    The Center for the Study and Prevention of Violence references a 
summary of a report by three researchers from Brandeis University of 
the Quantum Opportunities Program (QOP).
  --The finding is from a study of a program that offers more 
        expensive, different services from those offered through after-
        school programs.--QOP was a small demonstration program 
        operating with approximately two and a half times the funding 
        per student than a 21st CCLC program. It also paid cash 
        incentives to participants for various accomplishments and to 
        staff based on student participation hours.
  --Methodological problems with the study.--Although originally the 
        study was a random assignment design, the study appeared to 
        include follow-up information only for a subset of the 
        originally selected study participants who remained in the 
        program (Hahn, Andrew, Tom Leavitt, and Paul Aaron. 
        ``Evaluation of the Quantum Opportunities Program (QOP). Did 
        the Program Work? A Report of the Post Secondary Outcomes and 
        Cost-Effectiveness of the QOP Program (1989-93).'' Waltham, MA: 
        Brandeis University, Heller Graduate School, Center for Human 
        Resources, 1994: p. 2). Not following the full sample of study 
        participants invalidates the random assignment design. To the 
        extent that program participants who benefit less from the 
        program are more likely to be those who dropped out of the 
        program, the estimated benefits from this study are 
        exaggerated.

 DISCUSSION OF TWO AFTER-SCHOOL PROGRAM BENEFIT-COST STUDIES CONDUCTED 
   BY THE WASHINGTON STATE INSTITUTE FOR PUBLIC POLICY, AND THE ROSE 
                               INSTITUTE

    In addition, the Department has included a brief analysis of the 
two studies conducted by the Washington State Institute for Public 
Policy, and the Rose Institute--discussed during the hearing--which 
looked at the cost-effectiveness of after-school programs. Both of 
these benefit-cost analysis studies are either based on studies that 
are not of after-school programs or of studies where long-term follow-
ups of services provided were so long ago--the early 1940s or early 
1960s--that their relevance to today's programs is at least 
questionable (the Perry Preschool study and the Cambridge-Somerville 
Youth Study). A brief description and discussion of the two cited 
benefit-cost analysis studies follows:

                     STATEMENT AND REPORTED SOURCE

    ``The Washington State Institute for Public Policy finds that 
effective after-school programs can yield a benefit-to-cost ratio to 
taxpayers and crime victims of $1.87 to $5.29 for every dollar 
spent.''----The Washington State Institute for Public Policy
Discussion and Analysis
    The calculated benefit-to-cost ratios cited here are based on 
evaluation studies of three programs--the Quantum Opportunities 
Program, the Big Brothers/Big Sisters program, and the Cambridge-
Somerville Youth Study, as well as the estimates of cost implications 
based on the criminal justice system operating in Washington State.
  --Estimates are based on programs that offer different services from 
        those offered by after-school programs.--The Quantum 
        Opportunities Program (QOP) is an intensive comprehensive 
        service program including mentoring for youth. The other two 
        are mentoring programs. In contrast, after-school programs are 
        offered in group settings with typical student to staff ratios 
        of 10:1. Therefore, attributing the benefits found in these 
        studies to typical after-school programs is likely to misstate 
        the likely benefits of after-school programs.
  --Estimates only compare one program to another.--The intention of 
        the report was to provide relative costs and benefits of 
        various programs. The authors caution about using such results 
        as actual dollar benefits--``it is probably more useful to 
        compare [the] results from one program to another, rather than 
        solely focusing on the absolute value of any particular 
        benefit-to-cost ratio.'' (Aos, Steve, Polly Phipps, Robert 
        Barnoski, and Roxanne Lieb. ``The Comparative Costs and 
        Benefits of Programs to Reduce Crime. Version 4.0.'' Olympia, 
        WA: Washington State Institute for Public Policy, 2001: p. 3).

                     STATEMENT AND REPORTED SOURCE

    ``The Rose Institute finds that quality after-school programs can 
reduce costs related to welfare, crime, and education (remediation 
services and grade repetition) for an average net benefit of between 
$79,484 and $119,427 per participant.''----Rose Institute
Discussion and Analysis
    The calculated benefit-to-cost ratios cited here are primarily 
based on two evaluation studies--the Quantum Opportunities Program 
(QOP) and the Perry Preschool Project.
  --Estimates are based on programs that offer different services from 
        those offered through after-school programs. QOP was a 
        demonstration program providing intensive services to a small 
        number of high school students. The Perry Preschool project 
        provided a high quality active preschool environment for 3 to 4 
        year olds.
  --Imprecise benefit estimates. Most of the estimated benefits in this 
        report originate from estimated increased lifetime income and 
        estimated benefits associated with estimated reduced crime--
        both of which are difficult to estimate with much precision or 
        credibility.

          ACADEMIC GAINS OF AFTER-SCHOOL PROGRAM PARTICIPANTS

    Senator Specter. How about the study by Gansk & Associates 
reporting gains in standardized test scores and reading and 
math were greater for students participating in after-school 
programs than for comparable students according to a study of 
19 elementary schools in five States? Are you familiar with 
that study?
    Mr. Whitehurst. I do not have that one in front of me. I 
would have to check, again, to give you my reaction to it.
    Senator Specter. Does not come to mind.
    Mr. Whitehurst. It does not come to mind, sir.

               LA'S BEST AFTER-SCHOOL PROGRAM EVALUATION

    Senator Specter. Uh-huh. And how about the UCLA Center for 
the Study of Evaluation? In the initial year of study, LA's 
BEST students began with the math achievement scores that were 
significantly lower than nonparticipants. After long-term 
participation in the after-school programs, these students 
increased their test scores to be comparable to their peers. 
Familiar with that one?
    Mr. Whitehurst. I am very aware of that study, yes, sir.
    Senator Specter. Is there some defect in that study that 
would lead you to disagree with its conclusion?
    Mr. Whitehurst. Most of the studies that have addressed 
after-school programs are flawed in the following respect.
    Senator Specter. Well, I do not want to hear about most.
    Mr. Whitehurst. I will talk to you about this one then, as 
an example----
    Senator Specter. That is what I would like to hear.
    Mr. Whitehurst [continuing]. As an example of a flaw that 
is present in many of the studies like this.
    Senator Specter. Well, now----
    Mr. Whitehurst. The flaw----
    Senator Specter [continuing]. I am interested in this 
study----
    Mr. Whitehurst. I am responding to the question, sir.
    Senator Specter [continuing]. And if you could respond to 
flaws in it, as to this study.

        DRAWING CONCLUSIONS FROM OUTCOMES OF EVALUATION SUBSETS

    Mr. Whitehurst. I am glad to respond simply to this study 
then, Senator.
    Senator Specter. Thank you.
    Mr. Whitehurst. The problem with the L.A.'s BEST study is 
that it examines the differences between children who were 
long-term participants in the after-school program and compares 
the findings for those children with children at large in the 
district or children who were similar to children who entered 
the program in the initial years. So there is a comparison 
between a small subset of children, who chose, either because 
of their own interests or the interests of their parents, to 
participate over an extended period of time, over a period of 
years, with the outcomes of children who never volunteered for 
an after-school program and did not participate. It is a very 
awkward and potentially misleading comparison.
    If you, Senator, were out looking for a diet program--you 
would not need one; I might add--and I asked the diet program 
how participants in the program do, and the diet program said: 
``Well, those people who participate in our program for 5 years 
lose a lot of weight.'' That would not, for me, be a compelling 
comparison. I would like to know how people, in general, the 
typical customer of that program, performs.
    That is the question that has to be asked for after-school 
programs. How does the average, the typical, child who enrolled 
in the program do compared to similar children who did not 
enroll, and that comparison is not present in the L.A. BEST 
program.
    Senator Specter. Would that critique apply to your studies?
    Mr. Whitehurst. No, it would not.

        MATHEMATICA, INC. FINDINGS ON TARDINESS AND MATH SCORES

    Senator Specter. Are you familiar with the study of 
Mathematica, Inc., which concluded that after participating in 
a 21st Century Community Learning Center programs, its black 
and Hispanic students reduced tardiness to class and increased 
math scores compared to nonparticipants?
    Mr. Whitehurst. Yes, I am aware of that.
    Senator Specter. Do you disagree with those conclusions?
    Mr. Whitehurst. I do not disagree with the conclusions. The 
conclusions----
    Senator Specter. Is there some problem----
    Mr. Whitehurst [continuing]. Are there----
    Senator Specter. Is there some problem with that study?
    Mr. Whitehurst. The problem is the subgroup analysis. There 
was no directly comparable group among the nonparticipants. So 
it is a very promising finding. It is not a conclusive finding.
    Senator Specter. It is a very what?
    Mr. Whitehurst. A very promising finding, something we 
certainly need to follow up on.
    Senator Specter. Would you do that?
    Mr. Whitehurst. We are planning on doing that, yes, sir.
    Senator Specter. Uh-huh. If you have enough subgroups, Mr. 
Whitehurst, do you not have a pretty solid basis for a 
generalized conclusion?
    Mr. Whitehurst. If you have enough subgroups, you have a 
pretty good basis for a finding that some of those subgroups do 
better than other of the subgroups, and that is the problem 
with the subgroup analysis. Once you start----
    Senator Specter. Well, but if you had----
    Mr. Whitehurst [continuing]. Going in and trying to look 
for findings in particular subgroups, you are likely to find 
them for some of those groups, and it is very difficult to know 
whether that would replicate. That is why it is a very 
interesting and encouraging finding that we are very intent on 
following up.

       NRC FINDINGS AND SCHOOL-SPONSORED ACTIVITIES PARTICIPATION

    Senator Specter. Are you familiar with the National 
Research Council, which found students who reported spending no 
time in school-sponsored activities after school versus 
students spending 1 to 4 hours in such activities were 57 
percent more likely to have dropped out before reaching 12th 
grade?
    Mr. Whitehurst. I am aware of that, Senator. It would 
probably be the same finding for participation in sports or 
music or anything else. Kids who choose to participate in 
activities compared to those who do not are likely to finish 
school, do better in terms of grades, and a number of other 
factors, which represents differences in the motivation and 
background and interest of children who are voluntary 
participants versus children who do not avail themselves of 
opportunities that are present at school.
    Senator Specter. Well, the subcommittee would like you to 
give us an analysis of those programs without further 
questioning at this time----
    Mr. Whitehurst. Thank you, I would be pleased to do that.
    Senator Specter [continuing]. And compare them to the 
studies which you have undertaken.
    [The information follows:]
    Analysis of the Findings of Six Studies on After-School Programs
    Overall, we find that the studies cited at the Congressional 
hearing on May 13, 2003, do not provide scientifically based evidence 
of effectiveness of after-school programs. First, some of the cited 
studies are not of after-school programs. Second, most of the studies 
did not use scientifically rigorous methods and thus the results cannot 
be reliably attributed to participation in the program. Other factors, 
such as student or family background characteristics, could result in 
the outcome differences between participants and non-participants. In 
some cases, the researchers of the original reports openly discussed 
the limitations of the methods they used, cautioning readers about 
placing too much weight on the findings.
    Below is the Department's response to Senator Specter's request to 
provide a brief analysis of a list of study findings on after-school 
programs.
                    1. STATEMENT AND REPORTED SOURCE

    ``Gains in standardized test scores in reading and math were 
greater for students participating in after-school programs than for 
comparable students, according to a study of 19 elementary schools in 
five states.''----Gansk & Associates

Discussion and Analysis
    The statement refers to a report on the Foundations After-School 
Enrichment Program (Klein, Stephen, and Roger Bolus. ``Improvements in 
Math and Reading Scores of Students Who Did and Did Not Participate in 
the Foundations After School Enrichment Program During the 2001-2002 
School Year.'' Santa Monica, CA: GANSK & Associates, 2002).
  --Study design is not scientifically rigorous.--The authors calculate 
        test score gains for a small number of program participants and 
        nonparticipants at the same schools in five counties in which 
        this program operates. The study design is seriously flawed 
        constructing an inappropriate group of students for comparison. 
        Since the unsophisticated analyses fail to account for 
        potentially important differences between participants and non-
        participants (e.g., initial test score differences and likely 
        motivational differences since the non-participants elected not 
        to participate in the program even though it was available), 
        the findings cannot be attributed to participation in the 
        program.

                    2. STATEMENT AND REPORTED SOURCE

    ``In the initial year of study, LA's BEST students began with math 
achievement scores that were significantly lower than non-participants. 
After long-term participation in the after-school program, these 
students increased their test scores to be comparable to their 
peers.''----UCLA Center for the Study of Evaluation

Discussion and Analysis
    This is an evaluation of a single program, LA's BEST after-school 
program, with two reports conducted by the Center for the Study of 
Evaluation at the University of California at Los Angeles (Brooks, 
Pauline E., Cynthia M. Mojica, and Robert E. Land. ``Final Evaluation 
Report. Longitudinal Study of LA's BEST After School Education and 
Enrichment Program, 1992-94.'' Los Angeles, CA: Center for the Study of 
Evaluation, UCLA Graduate School of Education and Information Studies, 
1995; Huang, Denise, Barry Gribbons, Kyung Sung Kim, Charlotte Lee, and 
Eva L. Baker. ``A Decade of Results: The Impact of the LA's BEST After 
School Enrichment Program on Subsequent Student Achievement and 
Performance.'' Los Angeles, CA: UCLA Center for the Study of 
Evaluation, Graduate School of Education and Information Studies, 
2000).
  --Study design is not scientifically rigorous.--The 1995 study 
        compares a select sample of 130 students: a nonrandom sample of 
        program participants with 66 students who participated in the 
        program for less than 3 months and left the program. The 2000 
        study compares a group (an unspecified number) of program 
        participants with those who elected not to participate in the 
        program (even though it was available to them). Constructing 
        groups for comparison in these manners results in likely group 
        differences that are unmeasurable and thus unable to be taken 
        into consideration in the analyses. Therefore, the findings in 
        both reports cannot be attributed to participation in the 
        program.
  --Study findings are mixed and incomplete.--Both reports, but 
        particularly the more recent report, lack proper documentation 
        (e.g., response rates, sample size, full reporting of findings, 
        and details of analysis techniques) that is routinely reported 
        in high-quality research. In the 1995 report, the findings were 
        sensitive to estimation method (LA's BEST participants scored 
        lower than the comparison group when one method was used, and 
        an alternative method showed opposite findings). The first 
        method ``controlled for length of time the students attended 
        the program and statistically adjusted the before program' 
        performances of both groups of students . . . this analysis 
        yielded little in the way of encouraging results. The only 
        significant effects were associated with ethnicity and gender'' 
        (Brooks et al. 1995:13). With this method, LA's BEST students 
        had lower grades than the control group in all areas. The 
        second method ``controlled for initial differences by 
        eliminating outliers'--students who had unusually high or low 
        performances--from both groups'' (Brooks et al. 1995:14). With 
        this method, LA's BEST students had higher grades than the 
        control group in all areas.

                    3. STATEMENT AND REPORTED SOURCE

    ``After participating in the 21st Century Community Learning 
Centers program, black and Hispanic students reduced tardiness to class 
and increased math scores compared to non-participants.''--Mathematica, 
Inc.

Discussion and Analysis
    This is one select finding from the Department's evaluation of the 
21st CCLC program conducted by Mathematica Policy Research. As 
mentioned at the hearing, this is a promising subgroup finding among 
many other findings for the program that indicate, on average, the 
program fails to demonstrate effectiveness. Due to the nature of 
statistics, given enough different outcomes, it is possible to find one 
or two findings or a single subgroup that is statistically significant. 
It is impossible at this point without further data and additional 
studies to know the importance and reliability of this finding.

                    4. STATEMENT AND REPORTED SOURCE

    ``Students who reported spending no time in a school-sponsored 
activity (after school) versus students spending 4 hours in such 
activities were 57 percent more likely to have dropped out before 
reaching the 12th grade.''----National Research Council
Discussion and Analysis
    This finding is based on analyses of the National Educational 
Longitudinal Study (NELS) a longitudinal survey conducted by the 
National Center for Education Statistics (Zill, Nicholas, Christine W. 
Nord, and Laura S. Loomis. ``Adolescent Time Use, Risky Behavior, and 
Outcomes: An Analysis of National Data.'' Rockville, MD: Westat, 1995).
  --Finding not related to after-school programs.--This finding is 
        based on sophisticated analytical techniques to investigate 
        high school student responses to the question: ``In a typical 
        week, how much total time do you spend on all SCHOOL-SPONSORED 
        extracurricular activities.'' Inclusion of activities such as 
        band, orchestra, and organized sports clearly indicates that 
        responses were not necessarily referencing after-school 
        programs.
  --Study also includes negative findings.--Although the statement 
        highlights a positive finding, the study also found that 
        students who participated in particular extracurricular 
        activities actually increased their chances that they would 
        engage in certain risky behaviors.

                           5. REPORTED SOURCE

    Sacramento START program--two reports by Minicucci Associates--
(Minicucci, Catherine. ``Students Today Achieving Results for Tomorrow: 
Evaluation Report for START 1999/2000.'' Sacramento, CA: Minicucci 
Associates, August 2001. Minicucci, Catherine. ``Students Today 
Achieving Results for Tomorrow: Evaluation Report for START 2000/
2001.'' Minicucci Associates, Sacramento, California. October 2001.)

Discussion and Analysis
    The evaluation compared data on program participants for which 
there was test score data for the school years 1999-2000 and 1998-99.
  --Study design is not scientifically rigorous.--All analyses are 
        based only on program participants. With such a design, it is 
        impossible to determine whether program participants fared 
        better or worse than they would have without the program. 
        Because students generally improve their academic proficiency 
        with an additional year of schooling, any gain in test scores 
        could reflect normal progress.
  --Reported findings are mixed.--Reported results indicated that 
        participant math scores increased while participant reading 
        scores declined between the two school years.

                    6. STATEMENT AND REPORTED SOURCE

    ``Participation in the Quantum Opportunities Program led to higher 
rates of graduation: 63 percent of participants graduated high school 
compared to 42 percent of the control group.''----Center for the Study 
and Prevention of Violence

Discussion and Analysis
    The Center for the Study and Prevention of Violence references a 
summary of a report by three researchers from Brandeis University of 
the Quantum Opportunities Program (QOP).
  --The finding is from a study of a program that offers more 
        expensive, different services from those offered through after-
        school programs.--QOP was a small demonstration program 
        operating with approximately two and a half times the funding 
        per student than a 21st CCLC program. It also paid cash 
        incentives to participants for various accomplishments and to 
        staff based on student participation hours.
  --Methodological problems with the study.--Although originally the 
        study was a random assignment design, the study appeared to 
        include follow-up information only for a subset of the 
        originally selected study participants who remained in the 
        program (Hahn, Andrew, Tom Leavitt, and Paul Aaron. 
        ``Evaluation of the Quantum Opportunities Program (QOP). Did 
        the Program Work? A Report of the Post Secondary Outcomes and 
        Cost-Effectiveness of the QOP Program (1989-93).'' Waltham, MA: 
        Brandeis University, Heller Graduate School, Center for Human 
        Resources, 1994: p. 2). Not following the full sample of study 
        participants invalidates the random assignment design. To the 
        extent that program participants who benefit less from the 
        program are more likely to be those who dropped out of the 
        program, the estimated benefits from this study are 
        exaggerated.

    Senator Specter. Okay, thank you very much.
    Mr. Hansen. Thank you, Mr. Chairman.
    Senator Specter. The subcommittee would now be pleased to 
hear from Senator Barbara Boxer.
    Good morning, Senator Boxer.
    Senator Boxer. Good morning, Senator.
    Senator Specter. Thank you for joining us.

STATEMENT OF SENATOR BARBARA BOXER, U.S. SENATOR FROM 
            CALIFORNIA
    Senator Boxer. It is wonderful to be here with you.
    Senator Specter. We are going to turn on the lights for 
you, like we do for everybody, if----
    Senator Boxer. Yes, that is fine.
    Senator Specter [continuing]. That is satisfactory.
    Senator Boxer. I will not--I will endeavor to stick within 
the time. If I go over, it will be a mini-go-over.
    So let me, first of all, thank you for the last 7 years, 
you have been working with me and others in a bipartisan way. I 
want to start off by thanking you, because for the last 7 years 
you have worked with me and others in a bipartisan way to make 
after-school something that we do here, that we do well here, 
and that we can assist the States and the local school 
districts in doing.
    I want to just--because I was so interested in the first 
panel and your questioning of them, I wanted to ask if I might 
put in the record an executive summary of a report that was 
done on the Sacramento START Program, just the executive 
summary.
    Senator Specter. Certainly, without objection, it will be 
made a part of the record.
    Senator Boxer. Thank you, Mr. Chairman.
    [The information follows:]

 Supporting Student Achievement: Evaluation Report for START 2000/2001

                           EXECUTIVE SUMMARY

    The is a summary of the 2000/2001 evaluation of the START after 
school program, an innovative regional after school program operated by 
the City of Sacramento in collaboration with the County of Sacramento 
and six area school districts. The evaluation includes findings on 
student learning and attendance, findings from student interviews, and 
results of staff focus groups. The evaluation team would like to 
express its appreciation to the school district staff who assisted in 
the gathering of the information on student learning and attendance 
needed for this report.
Highlights Include
  --Student learning gains in math (3 NCE points) with higher gains for 
        English
  --Language Learners (4 NCE points)
  --Slight decline in reading (1 NCE point) for all students and 
        English speakers and no change in reading for English Language 
        Learners
  --Attendance improvement for students who missed 10 or more days of 
        school in the previous year: 4.7 fewer absent days in the year 
        they were in START compared to the previous year
  --Steady gain in math achievement over two years for students 
        followed for two years
  --Improved attendance for students in the program for two years with 
        improved attendance evident in the first year of START 
        continued into the second year. 2.2 fewer days absent over two 
        years. For problem attenders there was a two year decline in 
        days missed of school of 6.2 days

Background
    START was founded in 1995 with 18 elementary schools in five 
districts. In 2000/2001, the program involved six school districts and 
32 elementary schools. START programs on school sites served 3,820 
students in grades 1-6 in 2000/2001. The total number of participants 
by site range from 52 to 359 students, with an average of 119 students. 
Participating elementary schools serve low income neighborhoods. The 
City of Sacramento Department of Neighborhood Services serves as the 
fiscal agent for the program, employs and trains staff, and prepares 
reports to funders. The schools and districts provide space for the 
program on elementary school campuses, collaborate on curriculum 
planning and support the program financially with matching funds.
    In the 2000/2001 school year, the following districts participated 
in Sacramento START. The number of elementary schools in the program 
within each district are in parentheses: Del Paso Heights School 
District (1), Elk Grove Unified School District (1), Natomas School 
District (2), North Sacramento School District (4), Rio Linda Union 
School District (3) and Sacramento City Unified School District (21).

Evaluation Methods
    The evaluation consultant selected 1,200 students in grades 3 
through 6 who had participated at least 30 days in START in February 
and March of 2001. State requirements for evaluation call for a 
comparison between student achievement and attendance in the program 
year (2000/2001) compared to the previous year (1999/2000)The 
evaluators researched school district records and found that 748 of 
these students had complete SAT9 testing information for spring 2000 
and spring 2001 and 705 students had complete attendance information 
for the 1999/2000 and 2000/2001 school years. The evaluation group in 
2000/2001 included 227 students who were included in last year's 
evaluation for the 1999/2000 report, Achieving Results. A separate 
analysis of results for these 227 students enabled the evaluation to 
examine the impact of START on students who remain in the program two 
consecutive years. The state also asks local programs to administer 
four interview question to students as they begin the program and at 
the end of the program. These four questions about student behavior and 
connection to school are also used in the federal government's 21st 
Century Learning Community evaluation of federally funded after school 
programs.
    Preparing the 2000/2001 evaluation report was a collaborative 
effort between the evauation team, school district staff, and START 
staff. During the process, the school district staff expressed a desire 
for additional analyses by district and school and potential for 
comparison groups of non participating START students. The extent of 
district staff involvement and engagement with the evaluation has grown 
over the past six months as Minicucci Associates have prepared two 
evaluation reports for the program under state guidelines. District 
preferences and desires for enhancements for the evaluation analysis 
have become more prominent in the 2000/2001 study and will become even 
more apparent in the 2001/2002 evaluation next fall.

            Findings
    The 748 students in the evaluation group were more female (54 
percent) than male (44 percent). (For 2 percent of sample students, 
gender was unknown.) Younger students were more heavily represented 
that upper grade students in the program. Third graders comprised 30 
percent of the students, fourth graders were 33 percent, 24 percent 
were in the fifth grade and 13 percent were in the sixth grade. 
Ethnically, the students were diverse with 29 percent Hispanic, 27 
percent African American, 23 percent Asian, 15 percent White and the 
remaining 1 percent other. For 5 percent of sample students, ethnicity 
information was not available. Slightly over one third of the students 
(34 percent) were English Language Learners and spoke a language other 
than English. Major languages represented included: Spanish (45 
percent), Hmong (31 percent), Hindi (7 percent), Mien (5 percent) and 
Chinese (5 percent) (both Mandarin and Cantonese.)

1. Student Learning Outcomes on SAT9
    Overall, the average results on SAT9 reading for the 748 students 
showed a 1 point decline between 1999/2000 and 2000/2001. In math there 
was a 3 NCE point gain. Both changes were statistically significant. 
English Language Learners remained stead in math with no gain or loss 
in NCE points in spring 2001. English speakers lost 1 NCE point in 
reading. In math, English Language Learners gained 4 NCE points 
compared to English speakers who gained 2 NCE points. These findings 
are similar to those in the 1999/2000 report on START: English Language 
Learners make greater achievement test gains and all students do better 
in math than in reading on the standardized tests.
    The state requests districts to examine growth in learning for 
students in the bottom 25 percentile rank or quartile. For reading, 37 
percent of START students were in the bottom quartile in 1999/2000 and 
20 percent of those students moved up to a higher achievement level out 
of the 25th percentile rank in spring 2001. In math, 30 percent were in 
the bottom quartile in 1999/2000 and 42 percent of those students moved 
up in spring 2001 to higher quartiles in math achievement. Overall, 
there were 2 percent more students in the bottom quartile in reading in 
spring 2001 than in spring 2000. In math, there were 31 percent of 
students in the bottom quartile in spring 2000 and 24 percent in spring 
2001, a drop of 7 percentage points. English Language Learners showed a 
1 percent drop in the proportion scoring in the lowest quartile in 
reading and a 10 percent drop in the lowest quartile in math. English 
speakers showed a 3 percentage point gain in the lowest quartile in 
reading and a 6 percent drop in the lowest quartile in math between 
spring 2000 and spring 2001.
    Turning to the group of 227 returning START students who were in 
last year's report, they showed steady gains in math while continuing 
to struggle in reading. In reading, the students declined 2 NCE points 
between spring 1999 and spring 2001. In math, the students gained 4 NCE 
points between spring 1999 and spring 2001. Low performing students in 
this group did slightly better than the 748 evaluation group students 
as a whole. In the spring of 2000, 38 percent of the returning group 
was in the lowest reading quartile and 28 percent was in the lowest 
math quartile. When the students were tested in the spring of 2001, 22 
percent moving out of the lowest performing cartel in reading and 45 
percent moving out of the lowest quartile in math.

2. Student Attendance
    Students in START in the 2000/2001 school year showed a small 
improvement in overall school attendance compared to the 1999/2000 
school year: from 5.5 days missed to 5.4 days missed for 0.1 fewer 
absent days. In missing fewer than 10 days of school, these children 
can be characterized overall as good attenders. Students who had been 
problem attenders in the previous year, missing 10 or more days of 
school showed a dramatic gain in attendance and a reduction in days 
absent, dropping from 14.8 days absent to 10.1 days, a reduction of 4.7 
days absent. These children got five more days of instruction in the 
year they particpated in START.
    The group of 227 returning START students showed improved 
attendance in the first year they were in START and that that 
improvement continued into the second year. These students missed 7.3 
days in 1998/1999, 5 days in 1999/2000 and 5.1 days in 2000/2001 or a 
two year drop in days absent of 2.2 days. The problem attenders missing 
10 or more days of school went from 15.9 days absent in 1998/99 to 9.8 
days to 9.7 days absent in 2000/2001. Their two year drop in days 
absent was 6.2 days. These results suggest that students who continue 
in START sustain their improved attendance over a two year period. By 
attending more days in school, these children have more opportunity to 
learn academic content.

3. Student Interviews
    Students in federal and state funded after school programs are 
asked four questions at the start and end of the program. A total of 76 
responses to the pre and post questions for participants in START were 
gathered, about 10 percent of the achievement test sample for 2000/
2001. The children are asked: ``In the past 30 days
  --How often have you wanted to go to school?
  --How often have you studied for a test?
  --How often have you felt unsafe at school?
  --How often has your mom, dad or guardian talked to you about school 
        or homework?''
    In general, the pre-tests show that the START students like going 
to school, about two thirds of them reported studying hard for a test 
in the past month, almost 60 percent report never feeling unsafe at 
school and 45 percent speak with their parent or guardian daily about 
school. On the post test, the proportion of children wanting to go to 
school dropped, as did the proportion reporting they studied hard for a 
test in the past month. About the same number as on the pre-test 
reported feeling safe always at school on the post test. A higher 
proportion, over half, reported speaking daily with their parent or 
guardian about school on the post test.

4. Focus Groups With START Staff
    The evaluation team conducted end-of-the-year reflection 
discussions with 25 Site Directors and 5 Regional Directors in May 
2001. Staff related their pride in START as a safe alternative for 
children after school, providing reliable after school care for parents 
to enable them to work. This is particularly helpful for families 
coming off of welfare. Milestones in the 2000/2001 school year 
included: involving high school students as tutors and mentors in a 
science program, participation in 4H Cooperative Extension enrichment 
activities, UC Davis ``Steps to College'' program at eight START sites, 
the Grant High School art and garden project at four START schools and 
a special nutrition program at eleven START sites. START also 
participated in the Sacramento County Fair ``Chicken in the Egg'' 
contest in which student efforts resulted in 47 blue ribbons for the 
program.
    Site Directors report that many of the children they work with in 
START need support services: basic needs like food and clothing, social 
services or health services. They also report that students come into 
the program often are tired and in need of some fun, a snack and a 
break. They feel the kids need a break to unwind so it is very hard to 
launch immediately into academic program content with them when they 
start the after school program.
    The largest challenges for Site Directors and Regional Directors is 
turnover in Program Leaders. The need to train new Program Leaders 
during the school year is time consuming for Site Directors. All staff 
voiced the belief that consistent, well trained after school program 
staff is key to ensuring a high quality program. Many Site Directors 
were previously Program Leaders or school aides so they bring valuable 
experience to their assignment in START. Successful strategies for 
training staff include shadowing experienced START staff, observing 
skilled classroom teachers during the school day and having classroom 
teachers observe the new hires and offer suggestions. Site Directors 
and Regional Directors feel that a lower staff/child ratio (lower than 
the current 20:1) and higher hourly pay would be desirable. A key 
requirement of START is the need to collaboratively share classroom 
space with teachers at each site. In about half of the schools, staff 
report that the relationships have been carefully worked out. In the 
other half, the challenge continues of trying to operate a program in 
space that is used during the day by the regular faculty of the school. 
START staff felt that regular communication between the START staff and 
the school faculty would help bridge the gap.
    START staff feel pressure to advance academic learning of students, 
particularly in literacy. Students want, more music and art which is 
often lacking in the regular school day. Staff expressed frustration 
with the pressure to stress reading with students who crave enrichment 
and fun. The challenge is how to make reading fun and worthwhile for 
students.
    START staff offered a number of concrete suggestions for 
strengthening the program, including adding more enrichment 
opportunities and field trips. Site directors would like a parent 
volunteer component integrated into the program. Site Directors 
appreciated the opportunity to reflect together and requested that this 
discussion opportunity be repeated on a regular basis. Quarterly 
reflection discussions will be continued in the 2001/2002 school year 
with evaluation team members facilitating the discussion.

    ``In established START sites, students tell their teachers what 
they're doing in START, their homework gets completed and the teachers 
learn the value of the program directly from the children.''---- Site 
Director

    ``Get college students to be Program Leaders in START, especially 
those who want to be teachers. START could be a laboratory for people 
who want to work with kids.''----Site Director

                      THE SACRAMENTO START PROGRAM

    Senator Boxer. That was outsourced to a group called 
Minicucci Associates, and they did this report. And without 
going into too much time on the findings, they said, ``START 
fosters enthusiasm for learning by engaging children in fun, 
literacy-focused activities in a safe and caring environment. 
START expands the school day and supports district goals.'' And 
then they actually quantify the increase in learning, Mr. 
Chairman, compared to the kids who do not go, which was one of 
the things, criteria, that was laid out here. So thank you for 
allowing me to do that.
    I want to start off by showing you an ad that ran in 
yesterday's New York Times and USA Today and all over the 
country, ``It is 3 p.m. Do you know where your kids are?'' I 
have to just go up so I get this right. The Office of National 
Drug Control Policy, which is an arm of this administration, 
and what a wonderful ad this is, I might say. It really caught 
my attention, and I think everybody who would see it, on a big, 
you know, newspaper page, blank except for that. And it goes 
into saying how kids can get in trouble. So it seems like an 
anomaly to me, Mr. Chairman, that while the administration is 
working hard to give this message to parents, how important it 
is they know where their kids are; on the other hand, we are 
looking at deep cuts in after-school. And I wanted to point 
that out, because I think those two things are contradictory.

                    FISCAL YEAR 2004 BUDGET REQUEST

    I also just wanted to quickly show you the numbers. I know 
you know them, but for the record, make it really simple as to 
where we are, with your help, again on a bipartisan basis, and 
I was able to write the authorization bill with Senator Ensign, 
who has a very compelling story about his life as a kid and the 
fact that he did not have a dad in the home and that he got in 
a lot of trouble as a kid and that he feels very strongly that 
our children need to be protected and need to be accounted for. 
And he teamed up with me, and we were able to get so much 
support. And we are up to the billion-dollar level this year. 
The Bush proposal, as you noted, would take this down a huge 
amount, 40 percent. That means the number of children kicked 
out of the program, 570,000. So, I mean, if you hold up, again, 
that first chart, Liz--thank you for being such a wonderful 
helper--we are going to have 570,000 kids, if we do not do 
something about that number, who are now unaccounted for. It 
makes things worse.
    Now, the next chart I wanted to show you is where we should 
be under the Leave No Child Left Behind Act, which our 
President signed and we all, so many of us, supported. Under 
that bill, we should be, in 2004, at 1.75 billion. And, again, 
taking that where it is, it will wind up--if we were to fully 
fund it, we would be taking care of a 1,600,000 more children.
    It is a pretty stark cut, and I think that your 
questioning, which I followed closely, and your prodding, was 
essentially this is a pretty deep cut when we do not really 
have the final studies.
    And, Mr. Chairman, I would ask unanimous consent to place 
my entire statement in the record, and I am going to----
    Senator Specter. Without objection, it will be made a part 
of the record.
    Senator Boxer [continuing]. And I am going to try to finish 
this in 1 or 2 minutes at the most.

        L.A.'S BEST AND SACRAMENTO START: AFTER-SCHOOL PROGRAMS

    I have gone all over the State to look at these programs, 
from L.A.'s BEST to Sacramento START. Those are very large 
programs. There are also smaller programs. And I have seen the 
kids, and I see the look in their faces, and I talk to their 
parents. And I know what these programs have meant to these 
families. Our studies show the kids do better. But you know 
what, Mr. Chairman? You can see. You can see it when you look 
at the kids, how good they feel about themselves and how 
motivated they are to do their homework, because they have 
support there.
    I have here two stories. I only have time to read one. And 
this is a young man from L.A.'s BEST. Let me make sure I get 
the right story. As a first-grader at Langdon Elementary School 
in North Hills, Mauricio faced the strong possibility that his 
lifestyle would be one of gangs, crimes, drugs, and violence. 
Instead, he became one of the first participants in L.A.'s BEST 
after-school program when he was in the first grade. Through 
L.A.'s BEST, Mauricio came into contact with police officers, 
tutors, and others, who gave them an alternative to gang life. 
Mauricio continued to be a part of L.A.'s BEST by working at 
the Langdon site all through high school. He said: ``I saw a 
lot of young people doing drugs and crime and dying when I was 
growing up. But today I am the first member of my family to 
attend college.'' And after graduation he plans to become a 
teacher because: ``Young people need someone to look up to and 
someone to help them. I want to give them what people gave to 
me.''
    So we can talk numbers, and we should, and we must, and we 
have to, but this is real. And I know when I talked to you 
about this, you really said to me: ``Senator, I want to work 
with you on this.'' I hope, Mr. Chairman, through your efforts 
and that of Senator Harkin and other Members of the Committee, 
that we can take a stand for our children.

                           PREPARED STATEMENT

    And my final word is this. In the 1970s, I had little kids, 
and I started to work part-time, and I realized there was no 
after-school program. We worked, we set up an after-school 
program in the Kentfield Unified School District in a suburban 
area. It is still going strong today, and the people think it 
is just the best. It is a sliding scale, because some people 
can afford to pay more than others. Bottom line, it works for 
our children, and that is what our country is really all about.
    I thank you, from the bottom of my heart, for your 
leadership on this.
    [The statement follows:]

              Prepared Statement of Senator Barbara Boxer

    Thank you, Mr. Chairman. I am pleased to be here today.
    I would first like to bring to your attention an advertisement 
printed in the New York Times yesterday. One arm of the federal 
government, the Administration's Office of National Drug Control Policy 
agrees that afterschool programs keep kids safe and away from drugs. A 
full-page advertisement from the Drug Control Policy Office states that 
``kids involved in after school activities are less likely to use 
drugs.''
    Meanwhile, based on one study on afterschool programs conducted for 
the Department of Education, the President's Budget has proposed a $400 
million cut to afterschool programs because the President concluded 
that afterschool programs do not work .
    If Congress goes along with the Administration's proposed funding 
cut, 570,000 kids already in programs will be turned out onto the 
streets. This deep, unprecedented cut would leave lots of children 
behind after school--not just leave them behind, but leave them home 
alone or leave them to join a gang.
    However, this is not even the full story. In 2001, I teamed up with 
Senator John Ensign in offering an amendment to the No Child Left 
Behind bill to authorize funding for afterschool programs. It passed 
the Senate 60-39--the first afterschool amendment ever to pass the 
Senate on a roll call vote.
    As enacted, authorized funding for afterschool programs increases 
$250 million each year until it reaches $2.5 billion by 2007. This 
would cover 4 million kids.
    By not funding afterschool programs at the level promised--$1.75 
billion--1.6 million children will be left behind [Chart 3]. We cannot 
let this happen. A bipartisan letter that I circulated--signed by 3 
Democrats and 3 Republicans--was recently sent to you Mr. Chairman, 
urging full funding of afterschool programs.
    The federal afterschool program is vital to so many children and 
families across America. I would like take a moment to share just two 
stories of the millions of stories.
    As a first grader at Langdon Elementary School in North Hills, 
Mauricio faced the strong possibility that his lifestyle would be one 
of gangs, crime, drugs and violence. Instead, he became one of the 
first participants in LA's BEST afterschool program when he was in the 
first grade. Through LA's BEST, Mauricio came into contact with police 
officers, tutors and others who gave him an alternative to gang life. 
Mauricio continued to be a part of LA's Best by working at the Langdon 
site all through high school. Mauricio said, ``I saw a lot of young 
people doing drugs and crime and dying [when I was growing up] but 
today, I am the first member of my family to attend college.'' After 
graduation from college, Mauricio plans to be a teacher because ``young 
people need someone to look up to and someone to help them-I want to 
give them what people gave to me.''
    A second story: Jerry had received several written warnings for his 
behavior during the regular school day. During a parent conference, it 
was discovered that problems existed at home, too. Jerry was 
``hanging'' with gang members and beginning to act like them--and he 
was only 10-years old. Rallying their resources, his concerned parents 
began to work with the LA's Best site coordinator and school staff to 
ensure close supervision of Jerry while he was on the playground (where 
his gang member friends would be looking for him). Family counseling 
and increased emphasis on academics were also part of the plan. Soon 
Jerry was involved in computer and geometry classes, the science club 
and the LA's Best sports program, where he led his teams to several 
tournaments. LA's Best kept Jerry off the streets and out of a gang.
    But it's more than these 2 examples. Dozens of respected, 
independent studies--some of them going into great depth and conducted 
over many years--confirm that afterschool programs keep children safe, 
reduce crime and drug use, and improve academic performance.
    For example, an evaluation of the Sacramento START afterschool 
program compared students who participated in afterschool programs and 
those who did not. Among students who were low performing in reading 
and writing on state tests, those who participated in afterschool 
programs improved their scores 3 times greater than those who did not 
participate.
    Mr. Chairman, I have visited some 20 afterschool programs all 
around California, from LA's Best to Sacramento Start, to programs in 
San Diego and San Francisco, among many others. I have talked with 
students, parents, and instructors to understand how to give every 
child the best quality experiences after the school bell rings. When 
doing so, it is obvious how important afterschool programs are to 
keeping our children safe, keeping them out of gangs, and keeping them 
off drugs.
    As the Senate begins working on this year's appropriations bills, I 
hope that you will get us back on track to fully funding afterschool 
programs.
    Finally, I would like to mention another Californian who has become 
a tireless advocate for afterschool programs. Since accepting the 
National Chair of ``Lights on Afterschool'' in 2001, Arnold 
Swartzeneggar has brought attention to the importance of afterschool 
programs throughout California and across country. I am so pleased to 
see him here today. Thank you, Mr. Chairman.

    Senator Specter. Thank you very much, Senator Boxer, for 
your devotion to this very important cause. We appreciate your 
testimony.
    Senator Boxer. Mr. Chairman, I appreciate it.
    Senator Specter. Thank you.

                 INTRODUCTION OF SECOND-PANEL WITNESSES

    We will now turn to our second panel, Mr. Arnold 
Schwarzenegger, Mayor John DeStefano, Mr. Harvey Sprafka, Mr. 
Steven Kinlock, and Ms. Madison White. If you would all come 
forward.

STATEMENT OF ARNOLD SCHWARZENEGGER, NATIONAL CHAIRMAN, 
            NATIONAL INNER-CITY GAMES FOUNDATION
    Senator Specter. As you are being seated, I will introduce 
our first witness, Mr. Arnold Schwarzenegger, who has appeared 
in many blockbuster films, including The Terminator, True Lies, 
Kindergarten Cop, Twins, won numerous body-building awards from 
Mr. Europe, Junior, to Mr. World, three times winner of the Mr. 
Universe competition, and an unprecedented seven-time Mr. 
Olympia champion. During President Bush's administration, he 
has served as chairman of the President's Council on Physical 
Fitness and Sports. He is the founder and national chairman of 
the Inner-City Games Foundation, which is currently operating a 
program called Arnold's All Stars, an after-school program 
offering academic, recreational, and cultural enrichment 
programs for middle schools in California. He received his 
business degree from the University of Wisconsin.
    Mr. Schwarzenegger, thank you for your leadership in this 
field, and thank you for joining us today. And thank you for 
drawing this big crowd.
    Mr. Schwarzenegger. Well, thank you, Mr. Chairman.
    Mr. Chairman and honorable members of the subcommittee, it 
is an honor to be here today to discuss one of my greatest 
passions, improving the lives of children. That is the reason 
that I am here today, to advocate for continued funding of the 
21st Century Learning Grant Program.
    There are many problems in the world today. And given 
enough time and my Terminator-like determination, I might be 
able to tackle them all. Nevertheless, I have chosen to focus 
my time and energy for the past quarter century on our 
children, because they are, quite literally, our future.
    Ronald Reagan so eloquently told us, ``America is the 
shining city on the hill. Welcome all who enter to follow their 
dreams.'' There is no greater American dream than to hope that 
our children will live a better life. A better life for our 
children can only happen with a good education, and educating 
our children should not stop at 3 p.m. when the school bell 
rings. For millions of American children, this is exactly what 
happens.
    Law enforcement, teachers, parents, and students know that 
between 3 and 6 p.m. is the danger zone for our kids. This is 
the time when our children are most likely to become victims of 
violent crimes, more likely to use drugs, abuse tobacco and 
alcohol, get pregnant, or commit violent crimes themselves.
    I was lucky growing up. I had two parents who kept me on 
the straight and narrow 24 hours a day. Every day when I came 
home, my mother was there to greet me at the door. She sat down 
with me, helped me with my homework, made me read out loud 
until I got every word just right. Only after my homework was 
finished I could go outside, where my dad or a coach would take 
over my instruction and take me skiing, sledding, ice skating, 
or work on my ice-curling techniques or soccer kick or whatever 
sport was in season.
    The bottom line is that there was someone there for me 24 
hours a day, coaching me, teaching me, mentoring me, telling me 
that they loved me, and always reminding me that I can turn any 
dream that I have into reality. It was this foundation that 
built my self-confidence, enabled me to achieve so much in my 
life.
    When I came to America in 1968, I had empty pockets, but I 
was full of dreams, desire, and determination. I believed that 
I could accomplish anything I set my mind to, a belief that has 
strengthened with time.
    I became the world champion 13 times over. I have made 
dozens of successful movies, grossing billions of dollars 
worldwide. I became successful in real estate and in the 
business world. I took English classes at night until I spoke 
and wrote well enough to earn a bachelor degree.
    I make these points not to share with you my life's 
accomplishments, but, more importantly, to make the point that 
none of this, absolutely none of this, would have been possible 
without the foundation built by caring parents, coaches, and 
other adults early in my life. Because of my experience, I had 
every reason to believe that what I had been told all my life 
was true, that America is the greatest country in the world and 
that America is the land where dreams can come true. I always 
said, ``If a little farm boy like me from Austria can make it 
in this country, then anyone can make it.''

           PRESIDENT'S COUNCIL ON PHYSICAL FITNESS AND SPORTS

    Then I had an experience that would change my point of view 
forever. In 1990, I was appointed by President George Bush as 
chairman of the President's Council on Physical Fitness and 
Sports. I visited schools in all 50 States, pumping up the kids 
to get them off the couch and to get them into fitness and 
sports activities, and all the time spreading the word that 
winners stay away from drugs, alcohol, and tobacco. Our fitness 
program was a huge success.

                     NEED FOR AFTER-SCHOOL PROGRAMS

    But while I was promoting fitness, I saw something that was 
disturbing to me. I saw, in the inner cities, too many children 
who seemed to have no aspiration, no dreams, and no hope. They 
were involved with gangs and drugs, spending their afternoons 
hanging around the street corner, shopping malls, video 
arcades, often getting into serious trouble. I realized how 
wrong I was when I said, ``Everyone in America can turn their 
dreams into reality.'' In fact, I used to say, ``Everyone 
should pull themselves up by their own bootstraps.'' Only I had 
to learn that not everyone had boots.
    Many of our children are not getting the same foundation I 
did as a child. Half of the American children come from a 
working single parent and from a family where both parents work 
outside the home. Millions of children are left unsupervised 
when the bell rings, ending the school day. This takes its toll 
on our children, our neighborhoods, and on the moral fabric of 
our country.
    If our children are our future, our future is in jeopardy 
every afternoon between 3 and 6 p.m., when unsupervised 
children are roaming the streets.
    But it does not have to be this way. After-school programs 
can reduce crime, make our streets safer, and improve the lives 
of our most vulnerable children. I have seen it work all over 
this country.

                CREATION OF INNER-CITY GAMES FOUNDATION

    I do not believe in talk. I believe in action. And so in 
1991, with the help of Danny Hernandez and the Los Angeles 
Hollenbeck Youth Center, we started providing after-school 
programs for thousands of children in Los Angeles. As a matter 
of fact, the program was so successful that, nearly 10 years 
ago, I decided to take it national and we created the Inner-
City Games Foundation, which has reached almost 200,000 
children in 15 different cities in this country.

                           ARNOLD'S ALL-STARS

    A couple of years ago, we decided to target at-risk junior-
high-school students and started Arnold's All-Stars, a model 
after-school program co-chaired by Los Angeles Mayor Jim Hahn 
and City Attorney Rocky Delgadillo that is operating 
successfully in some of the most disadvantaged middle schools 
in Los Angeles County right now.

     PROPOSITION 49--CALIFORNIA COMPREHENSIVE AFTER-SCHOOL PROGRAM

    But as Columbine and other school shootings across the 
Nation have shown us, troubled children come from all 
socioeconomic backgrounds. Every public school that chooses 
should have the resources to offer their unsupervised students 
a safe, educationally enriching place to go to after school.
    With that goal in mind, last year I sponsored Proposition 
49, a California statewide ballot initiative that the voters 
passed overwhelmingly. I am proud to report to you today that 
California is the first State in the Nation to make it possible 
for every public elementary and middle school to provide a 
comprehensive after-school program.
    The support that we have received for the initiative was 
unprecedented. We received tremendous support from across the 
political spectrum. Hundreds of elected officials endorsed our 
initiative, including Republicans such as former Governor and 
United States Senator Pete Wilson and Senate Republican Leader 
Jim Brulte, and also Democrats such as San Francisco Mayor 
Willie Brown and Attorney General Bill Lockyer. Over 80 
organizations representing nearly 6 million members joined 
together to support California's children--groups as diverse as 
the Howard Jarvis Taxpayers Association, the National Tax 
Limitation Committee, and the California Taxpayers Association, 
as well as the California Teachers Association, the California 
AARP, and the California PTA, and nearly every law enforcement 
organization in the State--endorsed our proposition, which just 
goes to show you, when it comes to children, there is no room 
for partisan politics.
    I agree with President Kennedy, who said, ``Children are 
the world's most valuable resource and its best hope for the 
future.''

              FINDINGS OF STUDIES OF AFTER-SCHOOL PROGRAMS

    There are many studies from across this country, which I 
have footnoted in my comments. These reports, sponsored by 
universities and organizations, looked at various after-school 
programs and clearly demonstrated that children that 
participate in after-school programs are more likely to stay in 
school and graduate, get higher grades, and go on to higher 
education, improve their test scores, avoid gang membership, as 
well as stay away from violent and dangerous behavior. For 
example, studies show that students who did not join an after-
school program were six times more likely to get a criminal 
conviction than kids in the same school who participated in 
after-school programs. According to a study by the University 
of Southern California, being unsupervised after school doubles 
the risk an eighth grader will smoke, drink, or abuse drugs.
    But crime prevention is not the only benefit. Studies show 
that students who participate in after-school programs were 
half as likely to drop out of high school, and 2\1/2\ times 
more likely to go on to further their education.

              COST EFFECTIVENESS OF AFTER-SCHOOL PROGRAMS

    After-school programs are cost effective. If run correctly, 
they actually save taxpayers dollars. I consider myself 
fiscally conservative. Simply throwing taxpayer dollars at a 
problem is not the solution. The facts show that investing in 
after-school programs makes good financial common sense.
    A recent study by the Rose Institute on State and local 
Government at California's Claremont McKenna College found that 
for every dollar invested in an after-school program by the 
State of California, taxpayers saved three dollars by reducing 
juvenile arrests, incarceration, grade repetition, and other 
costs to society. It costs the State of California under $1,000 
a year to provide a comprehensive after-school program for a 
child, but over $49,000 a year to incarcerate a juvenile 
offender in the California Youth Authority and over a million 
dollars a year in direct and indirect costs if a juvenile 
becomes a career criminal. Simply put, we can invest in our 
children now, or we can pay for it a much higher price later 
on.
    The benefits of after-school programs are clear. And, 
frankly, you do not need a stack of academic studies to come to 
that conclusion. Just ask any parent, teacher, or law 
enforcement official in your State, and they will tell you that 
a child who participates in after-school programs do better in 
school and stay out of trouble.

                        NO CHILD LEFT BEHIND ACT

    I know that, for most of you here today, I am repeating 
what you already know and believe about after-school programs. 
President Bush and you, in Congress, have shown your tremendous 
commitment to children by passing the No Child Left Behind Act 
and for making significant investment in the 21st Century 
Community Learning Centers and other federally funded after-
school programs over the last several years. Clearly, you and 
your colleagues have recognized the benefits of after-school 
programs. I am confident that your recognition of this 
opportunity and your continued commitment to provide Federal 
funding for after-school programs will, in the full light of 
history, prove to be a pivotal decision for our Nation.
    Current funding for the 21st Century Learning Centers 
provide over 1.2 million kids in 6,800 centers with 
educationally enriching and youth-development activities. And 
thanks to the changes made by the No Child Left Behind Act, 
after-school programs have even greater flexibility because 
community-based organization can now run programs.

           RESPONSE TO MATHEMATICA, INC. EVALUATION FINDINGS

    Recently, some of you may have heard about the first 
installment of the 3-year study on the progress of the 21st 
Century Community Learning Program. The study found that some 
of the after-school programs need improvement. I and others in 
the after-school community would agree with some of those 
findings. But it would be a big mistake--and let me reiterate, 
a big mistake--to use that study as a justification to reduce 
current funding levels for after-school programs. Instead of 
cutting back the funding for after-school programs, we should 
begin to work together to focus on finding ways to improve 
them--such as participation.

                    IMPROVING AFTER-SCHOOL PROGRAMS

    We need to make sure that kids want to join and want to 
stay in an after-school program. These programs are not 
mandatory, so kids are reluctant to join an after-school 
program they perceive as an extension of the school day. My 
experience is that we must offer programs that interest kids, 
not just give them study hall or Government-sponsored 
babysitting. If we hope to have after-school programs help with 
grades and behavior, we must first get the child to participate 
in the program.
    We must also train after-school program providers to 
include the children in the decisionmaking process so that they 
feel some ownership. At my Arnold's All-Stars after-school 
program, for instance, the kids chose the name of the program, 
designed the logo and the T-shirt, and played a role in 
deciding what types of activities we offer. And, to date, we 
have had almost no dropouts, and we have had a long waiting 
list for kids that want to join.

                                CONTENT

    A comprehensive after-school program should include 
academics, homework assistance, reading, computer classes, and 
language skills, et cetera. But a quality program must include 
much more. It should also offer enriching activities, such as 
drama, music, physical fitness and other experiences that build 
self-esteem, maturity, and social responsibility. Offering a 
variety of activities and experiences might give the child that 
one spark that excites them about learning and encourages them 
to do better in their studies.
    The last is accountability. How do you judge if an after-
school program is a success? Today, there are only vague 
standards of measurement. The No Child Left Behind Act directs 
States to develop performance indicators by which an after-
school program can be evaluated. But many States have yet to 
develop them, or use vague standards and need some additional 
guidance. 21st Century after-school program providers are eager 
for clear standards so that they can judge the success of their 
programs. Therefore, we must work together to institute 
standards by which a successful after-school program can be 
evaluated.
    I, for one, believe that after-school programs should be 
judged----
    Senator Specter. Mr. Schwarzenegger, may I inquire as to 
how much longer you will need?
    Mr. Schwarzenegger. One minute. Thank you, Senator.

         NO CHILD LEFT BEHIND, 21ST CENTURY AFTER-SCHOOL SUMMIT

    I, for one, believe that after-school programs should be 
judged not just on how they impact the child, but also how they 
impact the parents, our schools, our neighborhoods, our 
workforce, and our society. Without such standards, we cannot 
truly judge the success of the 21st Century Program or any 
other after-school program, and it is understandable that the 
Federal Government is having trouble determining if our tax 
dollars are being spent wisely.
    The good is, is there are a large number of people and 
organizations in this country with a great deal of expertise on 
how to create and run successful after-school programs. And I 
can tell you that those people and organizations are eager to 
share their experiences with anyone that is willing to listen.
    In that regard, I am pleased to announce to you today that 
I am joining the United States Department of Education to 
organize a No Child Left Behind, 21st Century After-School 
Summit to be held at the Department of Education on June 5 and 
6. At that summit, we will bring together the Nation's leaders, 
experts, after-school program providers, teachers, principals, 
and law-enforcement officials, and professional evaluators to 
share their experiences and knowledge on how to build a 
comprehensive after-school program.
    For many Americans, the family dynamics have changed 
dramatically since I was a child. Having a mom and a dad home 
every afternoon working on homework with their children or 
kicking the soccer ball around is just not a possibility.
    The one thing that has not changed are the benefits of 
adult supervision that it can bring for the child's life, 
whether at home or at a well-run after-school program.
    In many ways, I embody the American dream. An immigrant 
farm boy who has come to this country with no money and 
speaking very little English. Yet I realized every dream that I 
dared reach for. My new dream is that every child in America 
has the same chance I had.
    After-school programs work. Test scores go up, crime rates 
go down, and taxpayers save money. Most importantly, after-
school programs offer America's children the chance to realize 
their dreams in this land of opportunity.

                           prepared statement

    So thank you, once again, Mr. Chairman and members of the 
committee, for the vision and support that you have provided 
for after-school programs and for this opportunity to testify 
before your subcommittee. I look forward to our continued 
working together to make certain that no child in America is 
left behind. And remember, when it is time for the committee to 
consider funding for after-school programs in the next budget 
cycle, you can count on one thing: I will be back.
    Thank you very much.
    [The statement follows:]

              Prepared Statement of Arnold Schwarzenegger

    Mr. Chairman and Honorable Members of the Subcommittee: It is an 
honor to be here today to discuss one of my greatest passions--
improving the lives of children. That is the reason I am here today to 
advocate for continued funding of the 21st Century Learning Grant 
Program.
    There are many problems in the world today, and given enough time 
and my Terminator like determination, I might be able to tackle them 
all. Nevertheless, I have chosen to focus my time and energy for the 
past quarter century on our children because they are quite literally 
our future.
    Ronald Reagan so eloquently told us, America is the Shining City on 
the Hill--Welcoming all who enter to follow their dreams.
    There is no greater American dream than the hope that our children 
will live a better life. A better life for our children can only happen 
with a good education and educating our children should not stop at 
3:00 p.m. when the school bell rings.
    For millions of America's children this is exactly what happens.
    Law enforcement, teachers, parents and students know that 3-6 p.m. 
is the ``danger zone'' for our kids. This is the time when our children 
are most likely to become victims of violent crime, more likely to use 
drugs, abuse tobacco and alcohol, get pregnant, or commit violent 
crimes themselves.
    I was lucky growing up. I had two parents who kept me on the 
straight and narrow 24 hours a day. Every day when I came home, my 
mother was there to greet me at the door. She sat with me, helping me 
with my homework, making me read out loud until I got every word just 
right.
    Only after my homework was finished, could I go outside where my 
dad or a coach would take over my instruction and take me skiing, 
sledding or work on my ice-curling technique or soccer kick or whatever 
sport was in season.
    The bottom line is that there was someone there for me 24 hours a 
day, coaching me, teaching me, mentoring me, telling me they loved me, 
telling me that I could achieve anything I set my mind to, that if I 
worked hard enough I could turn any dream into reality.
    It was this foundation that built my self confidence and enabled be 
me to achieve so much in my life.
    When I came to America in 1968, I had empty pockets but I was full 
of dreams, desires and determination. I believed I could accomplish 
anything I set my mind to--a belief that has strengthened with time.
    I became the world bodybuilding champion 13 times over. I have made 
dozens of successful movies, grossing billions of dollars worldwide, I 
became successful in the real estate and business world, I took English 
classes at night until I could speak and write well enough to earn my 
Bachelor's degree.
    I make these points, not to share with you my life's 
accomplishments, but more importantly to make the point that none of 
this--NONE OF THIS--would have been possible without the foundation 
built by caring parents, coaches and other adults early in my life.
    Because of my experience, I had every reason to believe that what I 
had been told all my life was true: America is the land of opportunity, 
the place where dreams come true. I always said, ``If a farm boy from 
Austria can make it, anyone can make it in this country.''
    Then I had an experience that would change my point of view 
forever. In 1990, I was appointed by President George Bush as Chairman 
of the President's Council on Physical Fitness and Sports.
    I visited schools in all fifty states, pumping up the kids to get 
them off the couch and get them into sports and fitness all the time 
spreading the word that winners stay away from drugs, alcohol and 
tobacco. Our fitness program was a huge success, but I saw something 
that was very disturbing to me.
    I saw too many children who seemed to have no aspirations, no 
dreams and no hope. They were involved with gangs and drugs, spending 
their afternoons hanging around on the street corner, shopping malls 
and video arcades, often getting into trouble.
    I realized how wrong I was when I said everyone in America can turn 
their dream into reality.
    In fact, I used to say, ``Everybody should pull themselves up by 
their bootstraps just like I did.'' What I learned is not everybody has 
boots. Many of our children are not getting the same foundation I did 
as a child.
    Half of America's children come from a working single parent or 
from a family where both parents work outside the home.
    Millions of children are left unsupervised when the bell rings 
ending the school day. This takes its toll on our children, our 
neighborhoods and on the moral fabric of our Country. If our children 
are our future, our future is in jeopardy every afternoon between 3 and 
6 p.m. when unsupervised children roam the streets.
    But it doesn't have to be this way. After school programs can 
reduce crime, make our streets safer and improve the lives of our most 
vulnerable children. I have seen it work all over this country.
    I don't believe in talk, I believe in action and with the help of 
Danny Hernandez and the Los Angeles Hollenbeck Center we started 
providing after school programs for thousands of children in Los 
Angeles.
    The program was so successful that nearly 10 years ago, I decided 
to take it national and we created the ``Inner City Games Foundation'' 
which has reached almost 200,000 children in 15 cities nationwide.
    A couple of years ago we decided to target at risk junior high 
students and I started ``Arnold's All Stars'', a model after school 
program co-chaired by Los Angeles Mayor Jim Hahn and City Attorney 
Rocky Delgadillo that is operating successfully in some of the most 
disadvantaged middle schools in Los Angeles County.
    But, as Columbine and other school shootings across the nation have 
shown us, troubled children come from all socio-economic backgrounds.
    Every public school that chooses should have the resources to offer 
their unsupervised students, a safe, educationally enriching place to 
go after school.
    With that goal in mind, last year I sponsored Proposition 49, a 
California statewide ballot initiative that the voters passed 
overwhelmingly. I am proud to report to you today that California is 
the first state in the nation to make it possible for every public 
elementary and middle school to provide a comprehensive after school 
program.
    The support we received for the initiative was unprecedented! We 
received tremendous support from across the political spectrum. 
Hundreds of elected officials endorsed our initiative including 
Republicans such as Former Governor, and United States Senator Pete 
Wilson and Senate Republican Leader Jim Brulte, to Democrats such as 
San Francisco Mayor Willie Brown and Attorney General Bill Lockyer.
    Over 80 organizations, representing nearly 6 million members joined 
together to support California's children; groups as diverse as the 
Howard Jarvis Taxpayer Association, the National Tax Limitation 
Committee and the California Taxpayers Association, as well as the 
California Teachers Association, the California AARP and the California 
PTA and nearly every law enforcement organization in the state endorsed 
our proposition.
    Which just goes to show you: When it comes to children, there is no 
room for partisan politics. I agree with, President Kennedy who said, 
``Children are the world's most valuable resource and its best hope for 
the future.''
    There are many studies from across the country, which I have 
footnoted in my comments. These reports sponsored by universities and 
organizations looked at various after school programs and clearly 
demonstrate that children that participate in after school programs are 
more likely to stay in school and graduate, get higher grades and go on 
to higher education, improve their test scores, avoid gang membership 
as well as stay away from violent and dangerous behavior.
    For example, studies show that students who did not join an after 
school program were six times more likely to get a criminal conviction 
than kids in the same school who participated in an after school 
program.
    According to a study by the University of Southern California, 
being unsupervised after school doubles the risk an eight grader will 
smoke, drink or abuse drugs.
    But crime prevention is only one benefit. Studies show that 
students who participate in after school programs were half as likely 
to drop out of high school, and two and a half times more likely to go 
on to further education.
    After school programs are cost effective, if run correctly, they 
actually save taxpayer dollars. I consider myself a fiscal 
conservative. Simply throwing taxpayer dollars at a problem is not the 
solution. The facts show that investing in after school programs makes 
good financial common sense.
    A recent study by the Rose Institute on State and Local Government 
at California's Claremont McKenna College, found that for every $1 
invested in after school programs by the State of California, taxpayers 
save $3 by reducing juvenile arrests, incarceration, grade repetition, 
and other costs to society.
    It costs the State of California under $1,000 a year to provide a 
comprehensive after school program for a child, but over $49,000 a year 
to incarcerate a juvenile offender in the California Youth Authority 
and over a million dollars in direct and indirect costs if juveniles 
become career criminals. Simply put, we can invest in our children now, 
or we can pay a much higher price later on.
    The benefits of after school programs are clear--and frankly, you 
don't need a stack of academic studies to come to that conclusion. Just 
ask any parent, teacher, or police officer in your state and they will 
tell you that children who participate in after school programs do 
better in school and stay out of trouble.
    I know that for most of you here today, I am repeating what you 
already know and believe about after school programs. President Bush 
and you in Congress showed your tremendous commitment to children by 
passing the ``No Child Left Behind Act'' and for making a significant 
investment in the ``21st Century Community Learning Centers'' and other 
federally funded after school programs over the last several years. 
Clearly, you and your colleagues have recognized the benefits of after 
school programs.
    I am confident that your recognition of this opportunity and your 
continued commitment to providing federal funding for after school 
programs will, in the full light of history, prove to be a pivotal 
decision for our nation.
    Current funding for 21st Century Learning Centers programs provide 
over 1.2 million kids in 6,800 centers with educational enrichment and 
youth development activities. And thanks to changes made by the ``No 
Child Left Behind'' act, after school programs have even greater 
flexibility because community-based organizations can now run programs.
    Recently, some of you may have heard about the first installment of 
a three-year study on the progress of the 21st Century Community 
Learning Centers Program. The study found that some after school 
programs need improvement. I, and others in the after school community, 
would agree with some of those findings.
    But it would be a mistake to use that study as justification to 
reduce current funding levels for after school programs. Instead of 
cutting back the funding for after school programs, we should begin to 
work together to focus on finding ways to improve them, such as:
    Participation.--We need to make sure kids want to join, and want to 
stay in an after school program. These programs are not mandatory, so 
kids are reluctant to join an after school program they perceive as an 
extension of the school day.
    My experience is that we must offer programs that interest kids, 
not just give them study hall or government-sponsored babysitting. If 
we hope to have after school programs help with grades and behavior, we 
must first get the child to participate in the program.
    We must also train after school program providers to include the 
children in the decision making process so that they feel some 
ownership. At my ``Arnolds All Stars'' after school program for 
instance, the kids chose the name of the program, designed their logo 
and t-shirts, and played a role in deciding what types of activities we 
offer. To date, we have had almost no dropouts and a have a waiting 
list for children who would like to join.
    Content.--A comprehensive after school program should include 
academics; homework assistance, reading, computer classes, and language 
skills, etc. But a quality program must include much more. It should 
also offer enriching activities such as drama, music, physical fitness, 
computer classes, and other experiences that build self-esteem, 
maturity, and social responsibility. Offering a variety of activities 
and experiences might give a child that one spark that excites them 
about learning and encourages them to do better in their studies.
    Accountability.--How do you judge if an after school program is a 
success? Today, there are only vague standards of measurement. The ``No 
Child Left Behind Act'' directs states to develop ``performance 
indicators'' by which an after school program can be evaluated. But 
many states have not yet developed them or use vague standards and need 
some additional guidance.
    21st Century after school program providers are eager for clear 
standards so they can judge the success of their programs. Therefore, 
we must work together to institute standards by which a successful 
after school program can be evaluated.
    I for one believe that after school programs should be judged not 
just on how they impact the child, but also how they impact parents, 
our schools, our neighborhoods, our workforce, and our society.
    Without such standards, we cannot truly judge the success of the 
21st Century Program, or any after school program, and it is 
understandable that the federal government is having trouble 
determining if our tax dollars are being spent wisely.
    The good news is that there are a large number of people and 
organizations in this country with a great deal of expertise on how to 
create and run a successful after school program. And I can tell you 
that those people and organizations are eager to share their 
experiences with anyone that will listen.
    In that regard, I am pleased to announce to you today that I am 
joining with the United States Department of Education to organize a 
``No Child Left Behind, 21st Century After School Summit'' to be held 
at the Department of Education on June 5 and 6.
    At that Summit, we will bring together the nation's leading 
experts, after school program providers, teachers, principals, parents, 
law enforcement officials, and professional evaluators to share their 
experiences and knowledge on how to build a comprehensive, fun, and 
academically enriching after school program that encourages student 
participation. In addition, we will establish performance and 
accountability standards.
    For many Americans the family dynamic has changed dramatically 
since I was a child. Having a mom or dad at home every afternoon 
working on homework with their children or kicking the soccer ball 
around is just not a possibility.
    The one thing that has not changed in the past forty years are the 
benefits adult supervision can bring to a child's life, whether at home 
or at a well run after school program.
    In many ways, I embody the American dream: an immigrant farm boy 
who came to this country with no money and speaking very little 
English. Yet, I realized every dream I dared reach for. My new dream is 
that every child in America has the same chance I had.
    After school programs work. Test scores go up, crime rates go down 
and taxpayers save money. Most importantly, after school programs offer 
America's children the chance to realize their dreams in this land of 
opportunity.
    Thank you once again Mr. Chairman and members of the committee for 
the vision and support you have provided for after school programs and 
for this opportunity to testify before your Subcommittee. I look 
forward to our continued work together to make certain that no child in 
America is left behind. And remember, when it's time for the Committee 
to consider funding for after school programs in the next budget cycle 
you can count on one thing--I'll be back.
    I am happy to answer any questions you may have.

                  EVALUATIONS OF AFTER-SCHOOL PROGRAMS

    Policy Studies Associates, Inc. ``What Have We Learned From TASC's 
First Three Years: An Evaluation of the TASC After-School Program'' 
December 2002
    Pennsylvania State University Prevention Research Center 
``Generacion Diez: After-school Learning Program for Migrant Children 
Upper Adams School District'' Evaluation Report: September 17, 2002
    SCISN (School Community Integrated Services Network) Evaluation 
Committee ``Milwaukee Public Schools 21st Century Community Learning 
Centers 2001-02''
    UCLA Center for the Study of Evaluation ``A Decade of Results: The 
Impact of the LA's BEST After School Enrichment Program on Subsequent 
Student Achievement and Performance'' June 2000
    St. John's University ``Outcomes Assessment Report of the 2001 
Summer NY ICG Camp-US Program''
    Educational Research Services, Inc. ``South Florida Inner-City 
Games (SGICG) After-School Program Evaluation'' Final Report for the 
2001-2002 School Year, July, 2002

                      FORMER SENATOR RUSSELL LONG

    Senator Specter. Thank you very much, Mr. Schwarzenegger, 
for those very passionate and profound remarks.
    We do not have some Senators here today because they are 
attending the funeral of former Senator Russell Long, which is 
being held this morning.

                    ACKNOWLEDGMENT OF SHRIVER FAMILY

    With Mr. Schwarzenegger's testimony, I would like to 
recognize the presence of his wife, Ms. Maria Shriver, and her 
mother, Mrs. Eunice Shriver, and Sargent Shriver, former 
director of the Peace Corps and nominee for the vice presidency 
in 1972 on the Democratic ticket. Thank you for joining us.

STATEMENT OF HON. JOHN DeSTEFANO, JR., MAYOR, NEW 
            HAVEN, CT
    Senator Specter. Our next witness is Mayor John DeStefano, 
in his fifth term as mayor of New Haven, CT, and president of 
the National League of Cities. He has a master's degree in 
public administration from the University of Connecticut, where 
he also earned his undergraduate degree in political science. 
Thank you for joining us, Mayor DeStefano, and we look forward 
to your testimony.
    Mr. DeStefano. Mr. Chairman, thanks for doing this. Thanks 
for what you have been doing and for giving kids the 
opportunity to keep doing it.
    I am proud to be here as mayor of New Haven, president of 
the National League of Cities, representing 18,000 cities and 
towns. More important to me, however, are 5,000 New Haven 
public-school children who will be attending after-school 
community learning centers later today, part of nearly 1.3 
million children nationally.
    Now, I am not just the mayor and president of the League; I 
am also a member of the school board in New Haven. I appoint 
the school board. It is part of my city budget. One of my boys 
graduated from the school district last year. My other boy is a 
junior in high school. Both participated in the public school's 
after-school program.
    Now, I learned something growing up in New Haven, and that 
was to believe in a level playing field, the idea that we 
should all get the chance to finish the race. But we all know, 
those that have been around awhile, that not everybody starts 
the race at the same place. The fact is, most of my poor 
learners who graduate from one of my eight high schools were 
poor learners in kindergarten. They started out behind, and we 
spent the next 12 years trying to catch them out.
    Another thing that I have seen that is clear is that when 
kids' circles extend from their immediate family and from their 
church to broader communities of neighborhood and schools, 
lights begin to go out in some of their eyes, and there emerges 
a certain predictability about what is going to happen in those 
kids' lives, or, I should say, what is not going to happen. 
After-school programming is a choice for America to make, whose 
meaning in these lives of kids cannot be understated, and I see 
it every day in my community.

                    ACCESS TO AFTER-SCHOOL PROGRAMS

    Federal after-school programming is only part of the story, 
and I appreciated Mr. Whitehurst's points about motivation, 
background, and interest of kids. In point of fact, the largest 
issue is access for kids to these kinds of programs.
    Most of us have rich environments. I have eight high 
schools. Last Thursday, I was in a meeting, and the track team, 
the girls' track team, from one of them arrived at my office 
unannounced. And, of course, I interrupted what I was doing. 
The issue there was, these were kids who believed in 
themselves, in each other, and what they were doing, and they 
felt something about themselves that was powerful and good.
    Three years ago, the city started a Junior ROTC program, 
something I thought never would have been possible, in our 
northeastern city 10 years ago. To see 150 kids in their 
colors, different colors than gang colors, standing up is truly 
powerful.

                       COMMUNITY LEARNING CENTERS

    Community learning centers are part of our landscape, as 
well, whether it is the Davis Street 21st Century Marching 
Band, third and fifth graders in Connecticut's only elementary-
school marching band, or really what we spend most of our time 
doing, after-school tutorials. Seventy-six percent of our 
programs focus directly on literacy and math skills, being able 
to compete academically on State standardized testing. Forty 
percent of our kids come from households where English is the 
second language. Among our largest cohort of kids, 80 percent 
report improvement in achievement, turning in their homework on 
time, participating in class. Eighty-eight percent reported 
improvement in attendance. Eight-five percent reported 
improvement in behavior. I appreciate studies. I like studies. 
I am telling you it has happened.

                   THE KNUCKLEHEAD-HARD HEAD PROGRAM

    Now, there are other choices for after-school activity. 
There is the Knucklehead-Hardhead Program. New Haven has 
experienced, over the last decade, a 55 percent reduction in 
crime. Last year, in 2002, we had the lowest number of murders 
since 1960. However, last week, in one of my quietest 
neighborhoods, teenagers were involved in a shooting. One of 
them was a high school student. It happened, gee, guess at what 
time? 3:15. You want to know what time high school lets out in 
New Haven? 2:35. That is the Knucklehead-Hardhead choice that 
we are presented in the absence of these kinds of programs. I 
would also point out that recently New Haven was denied a 21st 
Century grant due to a lack of funding.
    I would say three things to you. I think America depends 
upon a balance, and that balance is a set of obligations and 
protections we extend to one another and that there is a 
connection between the past and the present in this country, 
and between the present and the future, and that we who are 
Americans, in large measure, are shaping the future by what we 
do today, what we believe today, and what we aspire to be for 
tomorrow.
    You know, every road I travel on in this country was paved 
by someone else, not me. The flight I took to get here to 
Washington was through facilities paid for by people I do not 
know. I like to think that when I went to the University of 
Connecticut, I paid for my own tuition. But you know what? So 
did every other taxpayer in the State of Connecticut share in 
paying that tuition for me. In my honest moments, I know where 
I came from, I know whose shoulders I stand on, and I know that 
any of us who ever got anywhere are standing on a lot of those 
shoulders.

   FISCAL YEAR 2004 BUDGET SUPPORT FOR 21ST CENTURY LEARNING CENTERS

    The second thing I know is that this is part of the Federal 
Government's job, because it is everybody's job to care about 
these kids and what they do. I am particularly concerned about 
the part of this program that sends the money to the State, 45 
of the 50 States, running about $80 billion in budget deficits, 
doing things like Connecticut is doing, which is shifting the 
burden of financing local education, and we all know lots of 
other things, to localities, eliminating choices for these 
kids.
    Finally, I will say this is--on behalf of the National 
League of Cities and the mayor and I want to say it clearly, I 
urge the Congress to support the 21st Century Community 
Learning Centers at the levels authorized in No Child Left 
Behind. Many of us who run the school district are concerned 
about the expectations of No Child Left Behind being unable to 
be reconciled with the funding that is being provided. That is 
the choice. Knuckleheads or academic warriors, hardheads or 
musicians; talk or leadership.

                           prepared statement

    I want to thank you, Mr. Chairman, for your leadership and 
the other members of the panel's leadership on this issue.
    Thank you.
    [The statement follows:]
                  Prepared Statement of John DeStefano
    Good Morning Chairman Specter, Ranking Member Harkin and members of 
the Subcommittee. I am John DeStefano, Mayor of New Haven, Connecticut. 
Today, I am pleased to be here as the President of the National League 
of Cities.
    The National League of Cities represents 18,000 cities and towns 
and over 140,000 local elected officials. NLC represents all cities 
regardless of size from New York City to Bee Cave, Texas. I appreciate 
the opportunity to speak to you today about the importance of 
Afterschool programs to the overall success and growth of a community.
    Let me begin by highlighting a few key points about our position on 
and approach to afterschool programs:
  --Local leaders play a critical role in coordinating afterschool 
        programs.
  --The National League of Cities is committed to providing support and 
        guidance to city officials in carrying out that role through it 
        Institute on Youth, Education, and Families.
  --All kids should have access to quality afterschool programming.
  --A continued federal financial commitment to supporting quality 
        afterschool programs is essential.
                 afterschool programs in the community
    Later this afternoon, 1.3 million students will leave their 
academic classrooms to afterschool programs. The afterschool program 
will provide these children with a safe, nurturing atmosphere with 
adult supervision. Students will participate in a broad array of 
activities all intended to advance the student's academic achievement, 
enhance socialization skills and contribute to a positive lifestyle.
    Mathematic and science education activities, tutoring services and 
ESL education programs are predominant in communities struggling for 
academic success. Communities with high drop-out rates and truancy 
problems sponsor programs intended to keep kids in school, off-drugs 
and motivated towards academic achievement. To enhance a student's self 
esteem and stimulate his or her creativity and desire to learn, 
afterschool programs offer cultural enrichment activities such as 
drama, art and music lessons. Mentoring and parent involvement 
activities are typical components of afterschool programs.
    A solid, well-managed and sufficiently funded afterschool program 
can provide numerous benefits to a city. Programs not only improve a 
child's academic achievement, but also keep that child safe and off the 
streets from 3-6 PM when most juvenile crime takes place. Afterschool 
programs are essential to working families with child care needs. 
According to a recent report by the Afterschool Alliance ``Closing the 
Door on Afterschool Programs: An Analysis of How the Proposed Cut to 
the 21st Century Community Learning Centers Program Will Affect 
Children and Families in Every State'' afterschool participants get 
better grades, attend school more and behave better. The report also 
notes that students who spend no time in extracurricular activities are 
49 percent more likely to use drugs and 37 percent more likely to 
become teen parents than those who spend one to four hours per week in 
extracurricular activities.
    The U.S. Department of Labor reports that the parents of more than 
28 million school-age children work outside of the home. Often a low-
income, single parent struggling to make ends meet is the head of a 
family in need of afterschool services. The National League of Cities 
believes that all working parents deserve to have the piece of mind of 
knowing their children are being cared for in a safe, nurturing and 
motivating environment during afterschool hours.
    Better-educated kids, hard-working parents and safe streets 
contribute to a community's success and vitality. Funding for 
afterschool programs is an investment in the city or town's future and 
can assist in reducing local expenditures. Youngsters will be involved 
in a productive activity that discourages risky behavior such as drug 
abuse, sexual activity and petty crime. A city that is child friendly 
will experience greater investment and growth. Businesses are more 
likely to move into a community that has a track record of providing 
exemplary services to all its citizens, especially the younger ones.
    The cost savings to a city will make a difference as juvenile crime 
rates plummet and demands on the local police force and the public 
safety system are alleviated. Fewer teen girls will become moms and 
therefore will complete high school and possibly go on to post-
secondary education. Savings will be realized in welfare and social 
service programs and benefits will be derived from a more educated 
workforce.

  NATIONAL LEAGUE OF CITIES COMMITMENT TO CHILDREN, YOUTH AND FAMILIES

    The National League of Cities (NLC) recognizes that municipal 
officials can and do play an integral role in local efforts to promote 
and coordinate programs and services that benefit children and working 
families. The NLC Institute for Youth, Education, and Families (YEF 
Institute) was launched in January 2000 as a special place to 
strengthen the capacity of municipal leaders to enhance the lives of 
children, youth, and families.
    The YEF Institute seeks to support and build upon the many roles 
that local elected officials and municipal governments can play to 
improve the outcomes for children and families. The YEF Institute 
focuses on five core program areas:
  --Education
  --Youth Development
  --Early Childhood Development
  --Safety of Children and Youth
  --Family Economic Security
    One of the Institute's education projects focuses on the 
afterschool time needs of children and youth. The goal of the Municipal 
Leadership for Expanded Learning Opportunities project is to increase 
the availability and improve the quality of expanded learning 
opportunities for children and youth in urban communities. The 
centerpiece of the project's activities is an intensive, 30-month 
technical assistance effort to help eight cities develop and implement 
strategies for expanding learning opportunities during the non-school 
hours within their communities. The eight cities are: (1) Charlotte, 
North Carolina; (2) Fort Worth, Texas; (3) Fresno, California; (4) 
Grand Rapids, Michigan; (5) Indianapolis, Indiana; (6) Lincoln, 
Nebraska; (7) Spokane, Washington; and (8) Washington, DC.
    There are three objectives for this project:
  --Provide support to cities to deepen and enhance the involvement of 
        municipal leaders around expanded learning opportunities during 
        the afterschool hours;
  --Broaden awareness among municipal officials of the diverse roles 
        they can play to stimulate and support expanded learning 
        opportunities;
  --Develop a range of publications and related materials to assist 
        municipal leaders as they seek to improve the afterschool 
        programs in their communities.
          federal financial commitment to afterschool programs
    The National League of Cities calls upon the Federal government to 
continue its partnership with the states and local governments in 
providing quality afterschool programs through the U.S. Department of 
Education's 21st Century Community Learning Centers initiative (21st 
CCLC). 21st Century funds provide communities a solid foundation to 
build and expand successful afterschool programs.
    As you know the No Child Left Behind Act authorized funding for 
21st CCLC through 2007. However, the funding levels have remained 
stagnant and have not been supported in the 2002 and 2003 
appropriations bill. If Congress appropriated $1.5 billion as 
authorized for 2003, an estimated 2.1 million children will have been 
able to participate in afterschool. Unfortunately, only an estimated 
1.4 million afterschool slots were available this year because Congress 
provided only $993.5 million, leaving too many children without a 
secure place to continue learning when the school bell rings.
    Most devastating to states and cities is the Administration's 
proposal to slash the funding for 21st Century Community Learning 
Center program budget by 40 percent in the fiscal year 2004 budget. If 
this proposal is enacted, approximately 550, 000 students nationwide 
will lose access to afterschool programs. The authorized level for 2004 
is $1.75 billion, which would provide afterschool slots for 2.5 million 
kids.
    Presently, in my State of Connecticut 14, 343 children are enrolled 
in afterschool programs supported by 21st CCLC funds. If the 
Administration's proposal goes into effect only 8481 students will be 
able to participate, leaving 5862 Connecticut youngsters behind. 
Recently, New Haven Public Schools were denied a 21st Century Grant due 
to a lack of sufficient funding. Our current afterschool grant runs out 
in May of 2004.
    Due to the success and popularity of afterschool programs demand 
has outpaced the supply. Among 32 states reporting 2002 grant data, 76 
percent of applicants funding requests were denied. A total of $192.9 
million in funds were allocated to these states, but there were a total 
of $793.3 million in requests from communities that want afterschool 
funding.
    Mr. Chairman, along with the real need for quality afterschool 
programs, there is widespread public support for funding of afterschool 
programs. The 2002 Nationwide Poll of Registered Voters on Afterschool 
Programs found that nine in ten voters (90 percent) believe that there 
is a need for some type of organized activity where children can go 
after school everyday that provides opportunities to learn. More than 
70 percent of voters believe afterschool programs are an absolute 
necessity for their communities.
    It is clear that an overwhelming number of Americans support 
funding for Afterschool.

                               CONCLUSION

    A continued federal commitment to Afterschool programs will help 
continue to build on current afterschool successes. This is a long-term 
investment with long-term pay-offs. Local governments are committed to 
provide quality afterschool services in their communities and we ask 
the committee to fully fund 21st Century Community Learning Centers at 
$1.75 billion as authorized in ``No Child Left Behind''.
    Thank you.

    Senator Specter. Thank you very much, Mayor. I might note 
parenthetically that I spent 3 enjoyable years in your city.

STATEMENT OF HARVEY SPRAFKA, CHIEF OF POLICE, 
            KNOXVILLE, IA
    Senator Specter. Our next witness is Chief Harvey Sprafka 
of the Knoxville, IA, Police Department, held that position in 
the department since 1975, and chief since 1995, bachelor's 
degree from Moorhead State College in Minnesota, and a 1973 
graduate of the Brown Institute, and a 1983 graduate of the 
Iowa Law Enforcement Academy.
    Thank you for joining us, Chief, and we look forward to 
your testimony.
    May I say to the students who are standing back there, 
there are chairs here if you want to come up and sit along the 
side. You get a better view of Mr. Schwarzenegger if you come 
up here.
    Those of you who run out of chairs along the side, can 
sit--come on up, come on up--can sit in the Senator seats.
    You may proceed, Chief.
    Mr. Sprafka. Mr. Chairman, thank you for the opportunity to 
testify today about the important decision you must make in 
determining the fiscal year 2004 appropriation level for the 
21st Century Community Learning Centers after-school program.
    Mr. Chairman, I will summarize my more lengthy written 
statement and ask that it be included in the hearing record.
    Senator Specter. Your full statement will be made a part of 
the record, without objection.
    Mr. Sprafka. My name is Harvey Sprafka. I have been in law 
enforcement since 1975, and I have spent the past 8 years as 
the chief of police in Knoxville, IA.

                      FIGHT CRIME: INVEST IN KIDS

    I am here today on behalf of more than 2,000 police chiefs, 
sheriffs, prosecutors, and victims of violence who are members 
of the organization Fight Crime: Invest in Kids. Our mission is 
to take a hard-nosed look at the research that shows what 
really works to keep kids from becoming criminals.
    First of all, we believe there is no substitute for tough 
law enforcement. But those of us in the front line also know 
that we will never be able to arrest and prosecute and imprison 
our way out of the problem of crime. And once a crime has been 
committed, we cannot undo the agony felt by the crime victim, 
nor repair that victim's shattered life. We can save lives, 
hardship, and money by investing in programs that give the kids 
the right start in life.
    When the school day ends, turning millions of kids out onto 
the streets with neither constructive activities, nor adult 
supervision, violent juvenile crime soars. Again, the prime 
time for violent juvenile crime is from 3 to 6 p.m. These are 
also the peak hours on school days for innocent kids to become 
victims of crime and at-risk behaviors. In one study, high 
school freshmen were randomly selected from welfare families to 
participate in the Quantum Opportunities 4-year after-school 
and graduation incentive program. Six years later, boys left 
out of the program average six times more criminal convictions 
than those in the program. Every $1 invested in this program 
has produced $3 in benefits to Government and the recipients. 
That does not even count the savings that result from a lowered 
crime rate. Numerous other studies show similar reductions in 
delinquency and cost savings, as well as improved academic 
achievement.

           FISCAL YEAR 2004 21ST CCLC PROGRAM BUDGET PROPOSAL

    As you know, there is a proposal to cut the funding for the 
21st Century Community Learning Centers Program by 40 percent 
next year. The reason for this cut was a recent study of the 
program's first few years showing it is in need of some 
improvement. But it does not make sense to cut funding for 
after-school programs after the findings of just one 
preliminary study. The study, which did show academic 
improvement for African American and Hispanic students, should 
instead be used as a tool to help improve the quality and 
accountability of after-school programs.
    So what we need to do is look at the after-school models 
that have had very positive research results, like Quantum 
Opportunities, and work to replicate those models through the 
21st Century Community Learning Centers program. Fight Crime: 
Invest in Kids is ready and willing to work with this 
subcommittee on any appropriations bill or report language for 
fiscal year 2004 needed to make that happen.

                   BENEFITS OF AFTER-SCHOOL PROGRAMS

    As I mentioned earlier, I have been in law enforcement for 
28 years. Sixteen of those years, I served as Knoxville's 
school liaison officer working with school children in grades K 
through 12. Since 1993, the Knoxville VA Child Care Center and 
the Knoxville Community District have jointly operated a 
before- and after-school program.
    Two of my three grandchildren participate in the after-
school program, and a third grandchild attends the VA Child 
Care Center's daycare program.
    It has been my experience that most children who commit 
delinquent acts are left unsupervised during after-school 
hours. That is frequently when we receive reports of vandalism, 
thefts, and disorderly conduct.
    That is not just my view. Polling shows law enforcement 
leaders around the country understand that investments in 
after-school programs really do make a difference, and national 
and State law enforcement associations have passed resolutions 
supporting investments in after-school activities.
    In recent years, Congress has also realized the need for 
after-school programs, increasing funding significantly. For 
that, I thank you. But it is not enough. On a regular basis, 
more than 10 million children and teens are unsupervised after 
school. Last year, 75 percent of the funds requested for the 
21st Century Community Learning Centers grants had to be turned 
down due to a lack of funds. Instead of cutting funding for 
after-school programs, Congress should be finding a way to 
bring the 21st Century closer to the level of $1.75 billion 
promised just last year in the No Child Left Behind Act. Every 
day that we fail to invest adequately in quality after-school 
programs, we increase the risk that you or someone you love 
will fall victim to violence.

                           PREPARED STATEMENT

    Our choice is quite simple. We can either send our children 
to after-school programs that will teach them good values and 
skills, or we can entrust them to the after-school teachings of 
someone like Jerry Springer, violent video games, or, worse 
yet, the streets.
    Thank you, once again, for this opportunity.
    [The statement follows:]

                  Prepared Statement of Harvey Sprafka

    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to testify today about the important decision you must make 
in determining the fiscal year 2004 Appropriations level for the 21st 
Century Community Learning Centers after-school program.
    My name is Harvey Sprafka. I've been in law enforcement since 1975, 
and I've spent the past 8 years as the chief of police in Knoxville, 
Iowa. I am also a member of the anti-crime group Fight Crime: Invest in 
Kids, which is made up of more than 2,000 police chiefs, sheriffs, 
prosecutors and victims of violence from across the country who have 
come together to take a hard-nosed look at the research about what 
really works to keep kids from becoming criminals.
    There is no substitute for tough law enforcement. But once a crime 
has been committed, we can't undo the agony felt by the crime victim or 
repair that victim's shattered life. Those of us on the front line in 
the fight against crime understand that we'll never be able to just 
arrest, try and imprison our way out of the crime problem. We can save 
lives, hardship--and money--by investing in programs that give kids the 
right start in life.
    The members of Fight Crime: Invest in Kids have come together to 
issue a ``School and Youth Violence Prevention Plan'' that lays out 
four types of programs that research proves--and law enforcement 
knows--can greatly reduce crime. The plan calls for more investments in 
quality after-school programs, quality preschool and child care 
programs, services that effectively treat and prevent child abuse and 
neglect, and activities that get troubled kids back on track before 
it's too late.
    I am here today to talk about the first of those points--after-
school programs.
    In the hour after the school bell rings, violent juvenile crime 
soars and the prime time for juvenile crime begins. The peak hours for 
such crime are from 3:00 to 6:00 p.m. These are also the weekday hours 
during which children are most likely to become victims of crime, be in 
an automobile accident, have sex, smoke, drink alcohol, or use drugs.
    After-school programs can cut crime immediately by keeping kids 
safe and out of trouble during these dangerous hours. They can also cut 
later crime by helping participants develop the values and skills they 
need to become good, contributing citizens. For example, in one study, 
students whose families were on welfare were randomly divided into two 
groups when they started high school. One group was enrolled in the 
Quantum Opportunities after-school program, which provided tutoring, 
mentoring, recreation, and community service programs and some monetary 
incentives to keep attendance up. The second group was left out of the 
program. When studied two years after the four-year program ended, the 
group of boys left out of the program had six times more convictions 
for crimes than those boys provided with the program.
    In addition to saving lives, after-school programs save money. The 
Quantum Opportunities Program produced benefits to the public of more 
than $3 for every dollar spent on it, without even counting the savings 
from reductions in crime. Numerous other studies show similar 
reductions in delinquency and cost-savings, as well as improved 
academic achievement.
    The 21st Century Community Learning Centers program is critical to 
helping communities across the country offer after-school activities to 
young people. As you know, there is a proposal to cut funding for the 
21st Century Community Learning Centers program by 40 percent next 
year. The reason for this cut was a recent study of the program's first 
few years showing it is in need of some improvement. But it doesn't 
make sense to cut funding for after-school programs after the findings 
of just one preliminary study. We know that quality after-school 
programs can significantly reduce the chances that a child will commit 
a crime now or in the future. The new 21st Century Community Learning 
Centers study, which did show academic improvement for African-American 
and Hispanic students, should be used as a tool to help improve the 
quality and accountability of after-school programs.
    One area for improvement highlighted by the study is the ability of 
programs to attract and retain students for regular participation. It 
seems that many of the programs were spending a large portion of the 
afternoon in what is basically a study hall. Kids don't want to go to 
more school at the end of the regular school day. Fun activities--not 
study halls--can lure kids into a program and enable them to 
participate in activities that will make them safer, healthier, more 
academically successful, and less likely to become criminals.
    So, what we need to do is look at the after-school models that have 
had very positive research results (like Quantum Opportunities) and 
work to replicate those models through the 21st Century Community 
Learning Centers program. Fight Crime: Invest in Kids stands ready to 
work with this Subcommittee on any appropriations bill or report 
language for fiscal year 2004 needed to make that happen.
    As mentioned earlier, I have been in law enforcement for 28 years. 
Sixteen of those years I served as Knoxville's School Liaison Officer, 
now commonly known as School Resource Officer. In that position I 
worked with school children in grades K-12. Also during that time I 
investigated all reported cases of child sex abuse and child abuse for 
the Knoxville Police Department.
    Since 1993 the Knoxville VA Child Care Center and the Knoxville 
Community School District have jointly operated a Before and After 
School Program. Two of my three grandchildren participate in the after-
school program and a third grandchild attends the VA Child Care 
Center's day care program.
    It has been my experience that most children who commit delinquent 
acts are left unsupervised during after-school hours. That is 
frequently when we receive reports of vandalism, thefts, and disorderly 
conduct.
    This is not just my view: Law enforcement understands that 
investments in after-school programs really do make a difference. 
Dozens of state and national law enforcement associations have adopted 
resolutions highlighting the crime-fighting importance of after-school 
programs, including the National Sheriffs Association, the Major Cities 
Chiefs, the International Association of Chiefs of Police, the 
Fraternal Order of Police, the National Association of Attorneys 
General and the National District Attorneys Association, as well as the 
Iowa Police Executive Forum, the Iowa State Sheriffs' and Deputies' 
Association, and the Iowa County Attorneys Association.
    This overwhelming support is demonstrated in polls of law 
enforcement officials. A nationwide poll of police chiefs, sheriffs and 
prosecutors conducted by George Mason University professors last year 
showed that 85 percent of those polled believed that expanding after-
school programs and educational child care would greatly reduce youth 
crime and violence.
    The law enforcement leaders were also asked which of the following 
strategies they thought was most effective in reducing youth violence: 
(1) providing more after-school programs and educational child care; 
(2) prosecuting more juveniles as adults; (3) hiring more police 
officers to investigate juvenile crime; or (4) installing more metal 
detectors and surveillance cameras in schools.
    Expanding after-school and educational child care was picked as the 
top choice by more than four to one over any other option. In fact, 
more law enforcement leaders chose ``expanding after-school programs 
and educational child care'' as ``most effective'' in reducing crime 
than chose the other three strategies combined.
    In recent years Congress has also realized the need for after-
school programs, increasing funding significantly. For that I thank 
you. But it isn't enough. On a regular basis, more than 10 million 
children and teens are unsupervised after school. Last year, 75 percent 
of the funds requested for 21st Century Community Learning Centers 
grants had to be turned down due to a lack of funds.
    Instead of cutting funding for after-school programs, Congress 
should be finding a way to bring the 21st Century Community Learning 
Centers program closer to the level of $1.75 billion promised just last 
year in the No Child Left Behind Act. Every day that we fail to invest 
adequately in quality after-school programs, we increase the risk that 
you or someone you love will fall victim to violence.
    Our choice is simple: we can either send our children to after-
school programs that will teach them good values and skills, or we can 
entrust them to the after-school teachings of Jerry Springer, violent 
video games, or worse yet, the streets.
    Thank you for this opportunity to testify today about the crime-
prevention benefits of after-school programs. I am happy to answer any 
questions you may have.

    Senator Specter. Thank you very much, Chief Sprafka, for 
your testimony.

STATEMENT OF STEVEN KINLOCK, STUDENT, THE PREPARATORY 
            CHARTER SCHOOL FOR MATHEMATICS, SCIENCE, 
            TECHNOLOGY, AND CAREERS, PHILADELPHIA, PA
    Senator Specter. We turn now to Mr. Steven Kinlock, a 12th-
grade student at Preparatory Charter School for Math, Science, 
and Technology in Philadelphia. He has served on the yearbook 
committee, was team manager for men's basketball, and vice 
president of the student council.
    Thank you for joining us, Mr. Kinlock, and we look forward 
to your testimony.
    Mr. Kinlock. Thank you for having me.
    Good afternoon, Chairman Specter and subcommittee. My name 
is Steven Kinlock. I am a senior at the Preparatory Charter 
High School of Mathematics, Science, Technology, and Careers in 
Philadelphia, PA.
    My school has been the proud recipient of a 21st Century 
Community Learning Centers grant. 21st Century grants funds 
have allowed me numerous opportunities that I never could have 
experienced at any other high school. As a senior, I attended 
the Community College of Philadelphia and took four college-
credit courses. This proved to be an invaluable experience for 
me, for I feel that I am now far better equipped to make the 
transition from high school to college.
    During my 4 years at Prep Charter, our 21st Century program 
allowed me to receive SAT preparation and even paid the fees 
for taking the test. I cannot begin to measure the value of the 
after-school tutoring and mentoring programs I have enjoyed for 
these past 4 years.
    As of this date, I have been accepted to 10 colleges and 
universities, including the Fashion Institute of Technology, 
Morgan State University, Virginia State University, Widener 
University, Virginia Union State University, Voorhees 
University, Indiana University of Pennsylvania, Paine 
University, California University of Pennsylvania, and Penn 
State University.
    Years ago, I would never have dreamed I would actually have 
the dilemma of choosing which college to attend. I truly 
believe that I could not have achieved this level in my high 
school academic career were it not for the after-school support 
and nurturing environment provided to me by the 21st Century 
Program sponsored by Foundations, Incorporated, and Prep 
Charter High.
    My grades and test scores saw a steady increase. I received 
assistance with my homework and worked on academic content 
crucial to my day-in-school success. High standards remained 
the same, but the after-school hands-on approach was a great 
style for enhancing my learning experiences.
    These after-school programs have provided many of my 
friends and me with meaningful academic cultural activities, 
have kept us off the streets, and have given us a positive 
direction in life. Through the support of these programs, we 
have come to believe we can do it, we can succeed.

                           PREPARED STATEMENT

    On behalf of Prep Charter students and all the children who 
participate in the 21st Century Learning Program, I thank you 
and ask for your continued support and funding. This is a 
program that makes a difference.
    [The statement follows:]

                  Prepared Statement of Steven Kinlock

    Good morning Senator Specter and Members of the Subcommittee on 
After-School Programs.
    My name is Steven Kinlock. I am a senior at the Preparatory Charter 
High School of Mathematics, Science, Technology, and Careers in 
Philadelphia, Pennsylvania. My school has been the proud recipient of a 
21st Century Community Learning Centers grant. Twenty-first Century 
grant funds have allowed me numerous opportunities that I never could 
have experienced at any other school. As a senior, I attended the 
Community College of Philadelphia and took four college credit courses. 
This proved to be an invaluable experience for me for I feel that I am 
far better equipped to make the transition from high school to college.
    During my four years at Prep Charter, our 21st Century program 
allowed me to receive S.A.T. preparation, and even paid my fees for 
taking the test. I cannot begin to measure the value of the after-
school tutoring and mentoring programs I have enjoyed for these past 
four years.
    As of this date, I have been accepted to ten colleges and 
universities, including the Fashion Institute of Technology, Morgan 
State University, Virginia State University, Widener University, 
Virginia Union State University, Voorhees University, Indiana 
University of Pennsylvania, Paine University, California University of 
Pennsylvania, and Penn State University.
    Years ago, I would never have dreamed that I would actually have 
the dilemma of choosing WHICH college to attend. I truly believe that I 
could not have achieved this level in my high school academic career 
were it not for the after-school support and nurturing environment 
provided to me by the 21st Century program sponsored by FOUNDATIONS, 
Inc. and Prep Charter High.
    My grades and test scores saw a steady increase. I received 
assistance with my homework and worked on academic content crucial to 
my day-school success. High standards remained the same but the after-
school, hands-on approach was a great style for enhancing my learning 
experiences.
    These after-school programs have provided many of my friends and me 
with meaningful academic and cultural activities, have kept us off the 
streets, and have given us a positive direction in life. Through the 
support of these programs, we have come to believe that WE CAN DO IT!!! 
WE CAN SUCCEED!!
    On behalf of all Prep Charter students and all of the children who 
participate in 21st Century Learning Programs, I thank you and ask for 
your continued support and funding. This IS a program that makes a 
difference.

    Senator Specter. Thank you very much, Mr. Kinlock, for 
those very cogent words.

STATEMENT OF MADISON WHITE, STUDENT, MASSILLON PUBLIC 
            SCHOOLS, MASSILLON, OH
    Senator Specter. Our final witness is Ms. Madison White, 
fourth-grade student at York Elementary School in Massillon, 
OH. She attends the Tigers Den 21st Century Community Learning 
Center program every day after school.
    Thank you for joining us, Ms. White, and we look forward to 
your testimony.
    Ms. White. Hello, my name is Madison White. I am 9 years 
old, from Massillon, OH.
    First, I would like to thank you for allowing me to come to 
Washington, DC, to speak to you about my very important 
everyday life.
    I would like to tell you how important the 21st Century 
after-school program has been to me, as a student. It allows me 
to have many educational opportunities that I might not have. 
For example, I get to go to Six Flags Amusement Park to learn 
about physics. Last summer, I went to Stan Hywet Hall and 
Gardens in Akron, Ohio, and learned about Stan Hywet and why he 
was an important person in Akron's history. The program also 
helps me with my homework. Whenever I have trouble, I know 
there is always a teacher who will help me, and all I have to 
do is ask.
    The activities are fun, too. We tie dye T-shirts. We make 
flubber, and we do experiments with dry ice.
    I have made many friends in the after-school program, and I 
know that a lot of them would be home alone if they did not 
have the after-school program. If they were home alone, they 
might get into trouble by doing things they were not supposed 
to do. The after-school program gives them someplace to go 
until their parents get home.
    When we first moved to Massillon, my mother enrolled me and 
my three brothers in the program so she could work extra hours 
so we could have money for extra things. If my mom had to put 
us in daycare, we would not be able to afford anything other 
than bills.
    The first summer we were in the program, Ms. Joseph, the 
program coordinator, talked my mom into having me tested for 
the gifted program. Now I can do work at the sixth-or seventh-
grade level. Because of this, I now get A's and B's and not 
C's.
    My brother, Chas, has also benefitted from this program. He 
was going to fail first grade, because his reading and math 
skills were so low. His teacher told my mom to enroll him in 
the summer 21st Century program, because they would help him 
with reading. Then the staff of the 21st Century program told 
my mom about another reading program. Now Chas is in second 
grade, and he can read as well as his classmates.
    Another thing I like about the after-school program is we 
eat dinner before we go home. Then my mom does not have to cook 
and she can spend more time with me and my brothers.

                           PREPARED STATEMENT

    The after-school program is very important to me and my 
family. I am asking you not to cut the funding for after-school 
programs, because other children should have the same 
opportunities that I had. We are your future, so whatever we 
put into our community now will help us all later.
    [The statement follows:]

                  Prepared Statement of Madison White

    Hi, my name is Madison White and I am in the 4th grade at York 
Elementary School in Massillon, Ohio.
    I go to the Tiger's Den 21st Century Community Learning Center 
program everyday afterschool. I like it because I get to do and learn 
lots of fun stuff.
    Everyday when we get there we get free time for thirty minutes, and 
we get a snack. When we have free time we can do lots of different 
things. We can play games, draw, or read quietly. My favorite thing to 
do when I get there is play games with my friends.
    After that we have homework time. That helps me a lot. Like the 
other day when I was doing my multiplication problems for math, and the 
teacher checked it over, and found out I forgot to put a zero on the 
end. So the next day I got the question right because my afterschool 
teacher checked my homework.
    After homework time we either play games or get to learn about fun 
things. Right now we're learning about what makes weather, like it 
rains, because of all the gases and water in the air. And a few weeks 
ago we were learning about our senses, and when we learned about taste 
we got to taste lots of different kinds of food, and then when we 
learned about touch, we put our hands in bags, and felt lots of 
different materials.
    We also get to do arts and crafts sometimes. We get to make cool 
stuff. Like the other week, we made tie-dyed socks, and this week we're 
making flowers out of coffee cans for our moms for Mother's Day.
    My favorite part of afterschool is when they read us stories. I 
like it because I can picture the stories in my head. Reading is my 
favorite subject at school.
    Also, I like it because I get to see my friend's afterschool, and 
also the teachers are really nice.
    We get to do Girls Scouts every Friday too, and my little brothers 
do Boy Scouts. They go to Tiger's Den too.
    I've been going to the afterschool program since I was in 2nd 
grade, and it has helped me a lot. When I first got there I used to do 
my homework faster than the other kids. The afterschool teacher told me 
I was really smart, and told my mom to get me tested to see how smart I 
was. And then after I got tested and it showed I was really smart, the 
teachers at my regular school put me in the gifted program. They said I 
might even get to graduate from high school early and go to college 
early too.
    Also, because my little brother goes to Tiger's Den 21st CCLC he 
didn't have to stay back. He almost failed first grade, but since he 
started going to afterschool, and the teachers helped him so much with 
his reading he didn't have to stay back.
    I like Tiger's Den because if me and my brothers and my friends 
didn't have it, we would have to go home alone afterschool and we 
wouldn't get to do all this fun stuff.

                            CLOSING REMARKS

    Senator Specter. Well, thank you very much, Madison, for 
that very eloquent statement, especially for someone who is 9 
years old. I think you are a good advertisement for the quality 
and efficiency and importance of after-school programs.
    Thank you, Mr. Steven Kinlock, for your testimony. Very 
impressive to be admitted to 10 universities. Have you made up 
your mind as to which one you are going to choose?
    Mr. Kinlock. No.
    Senator Specter. Well, it sounds to me like you have great 
choices.
    Chief, thank you for coming. I know Senator Harkin would 
have wanted to have been here to give you a special Iowa 
welcome, but he simply could not be here. And it is very 
important for the chiefs of police to be activists on crime-
prevention programs, big part of the job. I focused on that 
very heavily when I was DA of Philadelphia. I think it is very, 
very important.
    Mayor, you come from a unique city. New Haven is one of the 
great cities in America, and thank you for coming to testify on 
behalf of the National League. And we hear what you have to 
say, and your Knuckleheads-Hardheads are good focus points.
    Mr. Schwarzenegger, you are a model, beyond any question. 
You have a lot of fans. You have even added two new Senators to 
the roles of the U.S. Senate.
    Anybody have anything they would like to say in conclusion?
    I think we have heard very, very impressive testimony. You 
have very, very solid Committee support here. Our only 
difficulty, candidly, is when the Administration comes in with 
a lower figure, and the figures are somewhere else. It means, 
that in order to reinstate the funds for this program, we have 
to take monies from somewhere else. And that is hard on a 
subcommittee which funds healthcare and other education 
projects and worker safety.
    But I think the points have been made very, very 
emphatically here today, and we will give very, very careful 
consideration to your testimony.
    Mr. Schwarzenegger, when you attend the summit, I expect 
you to have quite a few things to say to the Department of 
Education.

                         CONCLUSION OF HEARING

    Thank you all very much for being here. That concludes our 
hearing.
    [Whereupon, at 12 noon, Tuesday, May 13, the hearing was 
concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


</pre></body></html>
